                               TABLE OF CONTENTS
Inspector General’s Message to Congress ................................................................................ 1

TIGTA’s Highlights ..................................................................................................................... 3

TIGTA’s Profile ...................................................................................................................... 7
    Statutory Mandate .................................................................................................................. 7
    Organizational Structure ........................................................................................................ 10
    Authorities .............................................................................................................................. 10

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .................... 11
    Systems Modernization of the Internal Revenue Service ...................................................... 11
    Tax Compliance Initiatives .................................................................................................... 14
    Security of the Internal Revenue Service ............................................................................... 18
    Providing Quality Taxpayer Service Operations ................................................................... 20
    Human Capital ....................................................................................................................... 24
    Erroneous and Improper Payments ........................................................................................ 25
    Taxpayer Protection and Rights ............................................................................................. 27
    Processing Returns and Implementing Tax Law Changes During the Tax Filing Season .... 27
    Using Performance and Financial Information for Program and Budget Decisions .............. 31

Protect the Integrity of Tax Administration ............................................................................ 35
     Internal Revenue Service Employee Misconduct .................................................................. 38
     Unauthorized Accesses ........................................................................................................... 40
     Assaults and Threats .............................................................................................................. 41
     Contract Fraud ....................................................................................................................... 41
     Bribery ................................................................................................................................... 42
     Other External Investigations ................................................................................................. 43

Congressional Testimony ............................................................................................................. 47

Awards and Special Achievements ............................................................................................ 49

Audit Statistical Reports .............................................................................................................. 51
     Reports with Questioned Costs .............................................................................................. 51
     Reports with Recommendations that Funds Be Put to Better Use ......................................... 52
     Reports with Additional Quantifiable Impact on Tax Administration .................................. 53

Investigations Statistical Reports ............................................................................................... 55
     Significant Investigative Achievements ................................................................................. 55
     Status of Closed Criminal Investigations ............................................................................... 56
     Criminal Dispositions ............................................................................................................ 56
     Administrative Dispositions on Closed TIGTA Investigations ............................................. 56




                                                                          iii
Appendices
Appendix I – Statistical Reports – Other .................................................................................. 57
    Audit Reports with Significant Unimplemented Corrective Actions .................................... 57
    Other Statistical Reports ........................................................................................................ 64

Appendix II – Audit Products ..................................................................................................... 65

Appendix III – TIGTA’s Statutory Reporting Requirements ............................................... 71

Appendix IV – Section 1203 Standards ..................................................................................... 79

Appendix V – Data Tables Provided by the Internal Revenue Service ............................... 81
    Internal Revenue Service Memorandum ................................................................................ 81
    Report of Employee Misconduct, Summary by Disposition Groups ..................................... 82
    Report of Employee Misconduct, National Summary ........................................................... 83
    Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ....................... 84

List of Abbreviations .................................................................................................................... 85




                                                                       iv
                                 INSPECTOR GENERAL’S
                                 MESSAGE TO CONGRESS



       I am honored to present the Treasury Inspector General for Tax Administration’s
(TIGTA) Semiannual Report to Congress for the time period covering April 1, 2008 to
September 30, 2008. As required by the Inspector General Act of 1978, as amended, we
submit this report summarizing our independent audit and investigative oversight of tax
administration, including Internal Revenue Service (IRS) activities, systems, and operations.
TIGTA completed 179 audits as of the close of Fiscal Year 2008 that identified $2.4 billion in
financial accomplishments.

         Three critical challenges affecting the IRS remain a priority for TIGTA: modernization
of its aging computer systems; expanding taxpayer compliance; and protecting the secured
personal and financial information of millions of taxpayers.

        During this time of economic crisis, citizens are relying on the Federal Government to
protect our Nation’s economic interests. Now, more than ever, the IRS must focus efforts to
close the Tax Gap – the difference between the amount of tax that taxpayers should pay and the
amount that is paid voluntarily and on time. In audits conducted over this reporting period,
TIGTA found that the IRS has neglected to consistently assess penalties on non-compliant
businesses and individuals. Additionally, TIGTA noted that the IRS generally does not
penalize taxpayers for making false statements when filing official tax forms. The IRS must
aggressively address the lack of taxpayer compliance and hold those in violation accountable
for their actions.

       In the process of ensuring taxpayer compliance, IRS agents sometimes encounter threats
and other potentially dangerous situations. I am pleased to report that special agents of
TIGTA’s Office of Investigations now have the authority to provide armed escorts to IRS
employees thanks to the recent passage of the Improving Government Accountability Act (P.L.
110-409). The President signed it into law on October 14, 2008.

        While the IRS has experienced positive results with its Modernized e-File System, the
overall modernization effort continues to face challenges with adequate funding and
maintaining of the projected 15-year system overhaul plan. Currently, the program is in its
tenth year; however, it has not met the goals set forth in the initial timeline. System glitches,



       TIGTA Semiannual Report to Congress                                                          1
       April 1, 2008 – September 30, 2008
budget shortfalls, and increased taxpayer activity have negatively impacted the project
schedule.

         Further, each year, millions of taxpayers entrust the IRS with sensitive financial and
personal data. TIGTA remains committed to assisting the IRS by assessing current practices
and finding innovative means to safeguard this information. This year, TIGTA recommended
that the IRS implement additional controls at all levels of its computer environment to maintain
adequate security over sensitive taxpayer data. Secured Internet connections, system access
restrictions and monitoring, and emergency preparedness and disaster recovery must be
strengthened.

         The 2008 Filing Season was unique for the IRS. During this busiest time of the year,
the IRS also processed and distributed funds in accordance with the Recovery Rebates and
Economic Stimulus for the American People Act of 2008. In addition to the expected filing rate,
an estimated 20 million individuals who normally would not file a tax return did so. Despite
this, the IRS achieved a high level of accuracy in calculating the 129.1 million economic
stimulus payments. TIGTA identified less than a half percent inaccuracy rate in their
calculations.

       In addition to the critical challenges facing the IRS, TIGTA continues to review and
make recommendations for providing quality taxpayer service operations, eliminating
erroneous and improper payments, curtailing unauthorized access to IRS information and
systems, and using performance and financial information for program and budget decisions.

        While TIGTA promotes the stewardship of the taxpayer dollar through our audit and
investigative efforts, we also look internally to ensure that our operations are serving the
taxpaying public in the most economical, efficient, and effective manner. As a result, we have
expanded our evaluative and reporting capabilities with the new Office of Inspections and
Evaluations. This office provides an additional level of oversight and allows for flexibilities in
evaluating certain IRS activities. Some notable reports already published by this new office
involve the use of religious compensatory time for Federal employees, IRS’s security measures
for personally identifiable information, and improvements to strengthen lockbox bank
oversight.

        I look forward to continuing our relationship with Congress. I want to acknowledge the
extraordinary efforts of the IRS and of our auditors, investigators, evaluators, attorneys, and
support personnel who work tirelessly to ensure our Nation’s tax system is operating
efficiently, effectively and fairly.

                                            Sincerely,



                                        J. Russell George
                                        Inspector General



   2                                                     TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
                        TIGTA’S HIGHLIGHTS
The following table shows TIGTA’s statistical highlights for this semiannual reporting period,
as well as all of Fiscal Year 2008.


                  Number of                                                                  Regulations/
                  Audit                      Increased/        No. of         No. of         Legislative
                  Reports     Cost Savings   Protected         Investigations Investigations Requests
                  Completed   Identified     Revenue           Opened         Closed         Reviewed
April 1, 2008 –
Sept. 30, 2008        96      $350 million      $1.4 billion       1,826          1,895            284

FY 2008               179     $350 million      $1.6 billion       3,554          3,690            459



Examples of high profile cases from the Office of Investigations:
Randy Nowak Charged in Murder for Hire Plot of IRS Revenue Officer
In July 2008, Randy Nowak was charged in a criminal complaint in Florida, with attempting to
kill an IRS Revenue Officer who was engaged in the performance of official duties.

According to court documents, in June 2008, Nowak, owner of RJ Nowak Enterprises, Inc., had
been asking around to find someone to kill an IRS employee. Nowak sought to kill the IRS
employee because she was auditing Nowak and he stood to lose $4,000,000 that he had hidden
offshore. Nowak had an outstanding liability to the IRS of approximately $300,000 related to
his personal income tax obligations and had four years of outstanding corporate tax returns for
his business that he had not filed.

In July 2008, Nowak met with an undercover Federal Bureau of Investigation Task Force agent
posing as a hit man and paid him $10,000 as a down payment for killing the IRS Revenue
Officer. Nowak also asked the undercover agent if he would be willing to burn down the IRS’s
office in Lakeland.

IRS Employee Sentenced for Unauthorized Accesses of Celebrities’ Accounts
In August 2008, IRS employee John Snyder was sentenced in Kentucky for intentionally
accessing a computer without authorization or exceeding authorized access to obtain
information from the IRS. He was sentenced to three years probation, ordered to perform 60
hours of community service, and to pay a fine of $1,000 and a $25 assessment.

According to court documents, between 2003 and 2008, Snyder accessed the accounts of at
least 202 taxpayers for which no business-related purpose could be identified. All but five of
the taxpayers consisted of celebrities, spouses of these celebrities, sports figures, and well-

          TIGTA Semiannual Report to Congress                                                               3
          April 1, 2008 – September 30, 2008
known individuals. Snyder confessed to making the unauthorized accesses, stating that he did
so out of curiosity.

TIGTA’s Strategic Enforcement Division detected the unauthorized accesses during routine
analysis of suspicious accesses by IRS employees.

Former IRS Employee Pleads Guilty to Receipt of More Than $9 Million in
District of Columbia Property Tax Refund Scheme
According to a Department of Justice (DOJ) press release, in June 2008, former IRS employee
Robert Steven pleaded guilty to receipt of stolen property and conspiracy to commit money
laundering in connection with a property tax refund scheme in which millions of dollars were
stolen from the District of Columbia Office of Tax and Revenue.

From 1990 to 2007, 67 deposits were made in the form of fraudulently obtained District of
Columbia government checks or cash proceeds from the scheme, totaling $9,272,312, into a
checking account maintained by Steven. The individual checks ranged in amounts from a
handful of initial deposits over $4,000 each to subsequent deposits of up to $490,000. Steven
transferred at least $1,709,500 of these funds into another checking account used primarily by
him. Using these funds, Steven purchased at least four Jaguar cars, a townhouse, and multiple
vacations to the Bahamas.

Examples of accomplishments from the Office of Audit:
Economic Stimulus Payments
TIGTA reviewed a number of phases in IRS’s efforts to issue economic stimulus payments to
more than 130 million households. The review included a series of audit reports designed to
provide Congress with an ongoing status of the IRS’s execution of the more than $100 billion
in payments.

The first report focused on the IRS’s efforts to plan for the implementation of the stimulus
payments and its actions through April 1, 2008, and found their efforts generally sufficient.
The second report dealt with the impact that the economic stimulus program had on toll-free
telephone access for the 2008 Filing Season. Lastly, the third report involved evaluating the
IRS’s processes for computation of the payments and the adequacy of controls to prevent
ineligible individuals from receiving payments.

Most of the differences and findings of TIGTA’s reports resulted from business decisions made
by the IRS in concurrence with the Department of the Treasury, taxpayer errors, and/or tax
software errors.

Questionable Refund Program
TIGTA found that the number of falsified tax returns, filed in an attempt to obtain fraudulent
tax refunds, has increased dramatically between 2006 and 2007. TIGTA estimates the IRS has
issued approximately $1.6 billion in fraudulent tax refunds during this two-year timeframe.



   4                                                    TIGTA Semiannual Report to Congress
                                                           April 1, 2008 – September 30, 2008
The Questionable Refund Program is a nationwide program designed to detect and stop
fraudulent claims for refunds on income tax returns. For the 2006 Filing Season, the IRS
detected and stopped $188 million in fraudulent refunds, but failed to stop an estimated $894
million in fraudulent refunds because its detection system was not operational.


IRS Modernized Systems were Deployed with Known Security Vulnerabilities
Key components of the Customer Account Data Engine (CADE) and the Account Management
Services (AMS) have been deployed with known security weaknesses in the controls over
sensitive data protection, system access, and disaster recovery. The CADE will provide the
foundation for managing all taxpayer accounts and will replace existing tax processing systems
and AMS will provide faster and improved access by employees to taxpayer account data.
TIGTA found that the IRS has established policies and procedures for security and privacy
requirements, but it did not follow those guidelines during the planning and design phases for
both systems. The report also found that IRS officials did not carry out their responsibilities for
ensuring the identified weaknesses had been fully addresses prior to deployment.




       TIGTA Semiannual Report to Congress                                                       5
       April 1, 2008 – September 30, 2008
                           TIGTA'S PROFILE

T
          IGTA provides independent oversight of Treasury Department matters involving IRS
          activities, the IRS Oversight Board, and the IRS Office of Chief Counsel. Although
          TIGTA is placed organizationally in
the Treasury Departmental Offices and
reports to the Secretary of the Treasury and               Statutory Mandate
to Congress, TIGTA functions independently
from the Departmental Offices and all other       • Protect against external attempts to
offices and bureaus within the Department.            corrupt or threaten IRS employees.
                                                 •   Provide policy direction and conduct,
TIGTA’s work is devoted to all aspects of            supervise, and coordinate audits and
activity related to the Federal tax system as        investigations related to IRS programs
administered by the IRS. By identifying              and operations.
and addressing IRS’s management                  •   Review existing and proposed
challenges, implementing the President’s             legislation and regulations related to
Management Agenda and the priorities of              IRS programs and operations, and
the Department of the Treasury, TIGTA                make recommendations concerning the
protects the public’s confidence in the tax          impact of such legislation or
system.                                              regulations.
                                                 •   Promote economy and efficiency in
TIGTA’s organizational structure is                  the administration of tax laws.
comprised of five functional offices: the        •   Prevent and detect fraud and abuse in
Office of Audit; the Office of                       IRS programs and operations.
Investigations; the Office of Inspections and    •   Inform the Secretary of the Treasury
Evaluations; the Office of Chief Counsel;            and Congress of problems and
and the Office of Mission Support (see chart         deficiencies identified and of the
on page 10).                                         progress made in resolving them.

TIGTA conducts audits and investigations
designed to:

   •   Promote the economy, efficiency, and effectiveness of tax administration; and
   •   Protect the integrity of tax administration.

Office of Audit
The Office of Audit (OA) identifies opportunities to improve the administration of the nation’s
tax laws by conducting comprehensive, independent performance and financial audits of IRS
programs, operations, and activities to:

   •   Assess efficiency, economy, effectiveness, and program accomplishment;
   •   Ensure compliance with applicable laws and regulations; and
   •   Prevent and detect fraud, waste, and abuse.


       TIGTA Semiannual Report to Congress                                                    7
       April 1, 2008 – September 30, 2008
The Audit program is comprised of reviews mandated by statute or regulations, as well as
reviews identified through Audit’s planning and evaluation process. The OA strategically
evaluates IRS programs, activities and functions so that resources are expended in areas of
highest vulnerability to the nation’s tax system. TIGTA’s OA program is presented in the
Annual Audit Plan which is published at the beginning of each fiscal year.

Office of Investigations
The Office of Investigations (OI) is charged           FY 2008 PERFORMANCE MODEL
with protecting the integrity of tax                      INVESTIGATIVE CASE DISTRIBUTION
administration. OI investigates allegations
related to fraud, waste, abuse, and
                                                               22%
mismanagement involving IRS programs and
operations, and IRS employee misconduct. OI
also strives to detect and prevent IRS internal                                             51%
misconduct and external manipulation of tax                 27%
administration through its proactive
investigative initiatives program and                      Em ploye e Inte grity
presentations to IRS employees, tax
                                                           Em ploye e & Infras tructure Se curity
practitioners, and other community groups.
TIGTA’s investigations are based on a                      Exte rnal Atte m pts to Corrupt Tax
                                                           Adm inis tration
progressive performance model consisting of
three primary areas of responsibility: employee
integrity; employee and infrastructure security; and external attempts to corrupt tax
administration. The use of the performance model has allowed OI to direct its crucial resources
to the most vulnerable areas.

Office of Inspections and Evaluations
TIGTA’s Office of Inspections and Evaluations (I&E) provides TIGTA with additional
flexibility, capacity, and capability to produce value-added products and services to improve
tax administration and promote good government. A proof-of-concept pilot was tested in FY
2006. The new organization, with a staff of eight, was formally established in March 2008,
with the intent to complete responsive, timely, and cost-effective inspections and evaluations of
IRS challenge areas by reviewing critical systems, programs, projects, and activities. I&E will
provide a range of specialized services and products related to tax administration, including
quick response reviews, on site inspections, and in-depth evaluations of major agency
functions, activities or programs.

Inspections will usually be more limited in scope and will be completed in a more compressed
period than a traditional audit. Evaluations are expected to be both broader in scope and
longer-term reviews that focus on complete programs or major components of a program.

Inspections do the following:

   •   Provide factual and analytical information;

   8                                                    TIGTA Semiannual Report to Congress
                                                           April 1, 2008 – September 30, 2008
   •   Monitor compliance;
   •   Measure performance;
   •   Assess the effectiveness and efficiency of programs and operations;
   •   Share best practices; and
   •   Inquire into allegations of fraud, waste, abuse, and mismanagement.

Evaluations often result in recommendations to streamline operations, enhance data quality,
and minimize inefficient and ineffective procedures. As a learning organization, I&E seeks to
expand capacity to create results by nurturing new and expansive approaches to thinking, while
maintaining independent and objective oversight of IRS programs and operations. Its work is
not a substitute for audits and investigations; in fact, its findings may result in subsequent audit
and/or investigations.

Office of Chief Counsel
The Office of Chief Counsel provides legal guidance, advice, and disclosure services to support
TIGTA’s accomplishment of its mission. The Office is comprised of attorneys, analysts, and
support personnel providing a full range of legal and disclosure related services to the other
functions.

The attorneys in the legal branches provide independent legal analysis, advice, and assistance
to TIGTA’s senior management, and the Offices of Investigations, Audit, Inspections and
Evaluations, and Mission Support to accomplish TIGTA’s statutory mandate to promote the
economy, efficiency and effectiveness of tax administration while protecting the integrity of tax
administration. The legal staff reviews proposed or existing regulations and laws affecting tax
administration and their impact on TIGTA and is involved in all legal matters affecting TIGTA
and its stakeholders. As agency counsel, the legal staff manages TIGTA’s ethics program to
ensure high ethical standards for all TIGTA employees; reviews claims, debt collection, and
procurement activities; serves as counsel in administrative litigation; and assists the
Department of Justice in litigation in which TIGTA is a party or witness.

The analysts in the disclosure branch process all Freedom of Information Act and Privacy Act
requests received by TIGTA, review all referrals to law enforcement agencies, determine the
disclosability of TIGTA’s final audit reports for posting on TIGTA’s Web site, and prepare
testimony authorizations for TIGTA employees who are subpoenaed or requested to testify on
matters of official business.

Office of Mission Support
The Office of Mission Support delivers integrated management services to all of TIGTA’s
business units. This includes all aspects of human capital planning and support, budget
formulation and execution, information technology services, and administrative operations.
The Office of Mission Support also supports TIGTA’s mission by facilitating strategic
planning, coordinating performance management as mandated by the Government Performance
and Results Act, and ensuring compliance with Inspector General Act reporting requirements.


   TIGTA Semiannual Report to Congress                                                       9
   April 1, 2008 – September 30, 2008
                                  Organizational Structure

                                               Inspector General


                                                Principal Deputy
                                               Inspector General




                               Chief Counsel




  Deputy Inspector                                                                      Deputy Inspector
                                               Deputy Inspector
General for Inspections                                                                    General for
                                               General for Audit
   and Evaluations                                                                       Investigations




                          Associate Inspector
                              General for
                           Mission Support




                                               Authorities
  TIGTA has all of the authorities granted                investigate potential criminal offenses under
  under the Inspector General Act of 1978, as             the internal revenue laws. In addition, the
  amended. 1 TIGTA has access to tax                      IRS Restructuring and Reform Act of 1998
  information in the performance of its tax-              (RRA 98) 2 amended the Inspector General
  administration responsibilities. TIGTA also             Act of 1978 to give TIGTA statutory
  has the obligation to report potential criminal         authority to carry firearms, execute and serve
  violations directly to the Department of                search and arrest warrants, serve subpoenas
  Justice. TIGTA and the Commissioner of                  and summonses, and make arrests as set forth
  Internal Revenue have established policies              in Section 7608(b)(2) of the Internal Revenue
  and procedures delineating responsibilities to          Code (I.R.C.).

                                                          2
                                                           Public Law No. 105-206, 112 Stat. 685 (codified as
                                                          amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16
                                                          U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 I.R.C., 31
  1
      5 U.S.C.A. app. 3 (West Supp. 2008).                U.S.C. 38 U.S.C., and 49 U.S.C.).


         10                                                        TIGTA Semiannual Report to Congress
                                                                      April 1, 2008 – September 30, 2008
      PROMOTE THE ECONOMY,
 EFFICIENCY, AND EFFECTIVENESS OF
       TAX ADMINISTRATION

T       IGTA’s Office of Audit (OA) strives to
        promote the economy, efficiency, and
        effectiveness of tax administration.
TIGTA provides recommendations to improve
                                                              Audit Emphasis Areas
IRS systems and operations while ensuring fair            •   Systems Modernization of the
and equitable treatment of taxpayers. TIGTA’s                 Internal Revenue Service
comprehensive, independent performance and                •   Tax Compliance Initiatives
financial audits of IRS programs and operations           •   Security of the Internal Revenue
primarily address mandated reviews and high-                  Service
risk challenges facing the IRS.                           •   Providing Quality Taxpayer Service
                                                              Operations
The IRS’s implementation of audit                         •   Human Capital
                                                          •   Erroneous and Improper Payments
recommendations results in cost savings and
                                                          •   Taxpayer Protection and Rights
increased or protected revenue, reduction of
                                                          •   Processing Returns and
taxpayer burden, and protection of taxpayer
                                                              Implementing Tax Law Changes
rights and entitlements, taxpayer privacy and                 During the Tax Filing Season
security, and IRS resources.                              •   Using Performance and Financial
                                                              Information for Program and
Each year, TIGTA identifies and addresses the                 Budget Decisions
major management challenges facing the IRS.
TIGTA places audit emphasis on statutory
coverage required by RRA 98, and areas of concern to Congress, the Secretary of the Treasury,
the Commissioner of Internal Revenue, and other key stakeholders.

The following summaries highlight significant audits completed in each of the above areas of
emphasis during this six-month reporting period.

Systems Modernization of the Internal Revenue Service
The Business Systems Modernization program is a complex effort to modernize IRS
technology and related business processes. According to the IRS, this effort involves
integrating thousands of hardware and software components while replacing outdated
technology and maintaining the current tax system. The IRS’s goal of providing high-quality,
efficient, and responsive information services to its operating divisions is heavily dependent on


       TIGTA Semiannual Report to Congress                                                     11
       April 1, 2008 – September 30, 2008
modernizing its core computer business systems while maintaining the existing systems. It also
relies on the security of those systems, the buildings that house those systems, and the safety of
the people who operate them.

Annual Assessment of the Business Systems Modernization Program
The IRS has achieved success when the Modernization program followed its systems
development and management guidance. The program has progressed more effectively with
the implementation of the Enterprise Services organization’s management components, and
with the development of the Information Technology Modernization Vision and Strategy
(MVS) as a map for future development. However, the IRS and its contractors must overcome
significant barriers to successfully implement the program goals. The Modernization program
and processes have not progressed enough to eliminate its material weakness designation, and
further reductions in funding could jeopardize the program’s ability to deliver planned
improvements.

The IRS originally estimated that the Modernization program would last up to 15 years and
incur contractor costs of approximately $8 billion. According to the IRS’s original plan, the
Modernization program would be past the halfway point by Calendar Year (CY) 2008. The
program is in its tenth year and has received approximately $2.5 billion for contractor services,
plus an additional $310 million for internal IRS costs. The IRS planned to spend $267 million
to manage the Modernization program in Fiscal Year (FY) 2008.

TIGTA provided an assessment of the Modernization program’s status and accomplishments
through FY 2008 but did not offer any recommendations. The IRS responded that it was
pleased that the annual assessment recognized the progress in implementing Modernization
projects, validating improvements in contracting procedures affecting the Modernization
program, and documenting work to institutionalize the MVS. The IRS also stated that it has
taken additional steps to improve Modernization program performance, including developing
strategies to confront risks and issues to future system releases, efforts to address human capital
challenges and succession planning, and developing and implementing a methodology for
quantitatively measuring and reporting on project scope.
Report Reference No. 2008-20-129

Modernized e-File System
The Modernized e-File System replaces the current IRS tax return filing technology with a
modernized, Internet-based electronic filing platform. So far, it has successfully processed
electronically filed (e-filed) tax returns for corporations, partnerships, and exempt
organizations. The number of tax returns filed through the Modernized e-File System increased
127 percent in 2007 to approximately 2.23 million from 982,000 in 2006. This System
facilitates taxpayer account processing and also allows e-filed tax information to be accessed
for use in tax administration compliance activities by the IRS business operating divisions.

TIGTA found that the IRS does not have a formal process for identifying, reporting, and
resolving issues related to tax returns processed by the Modernized e-File System, nor does it

   12                                                    TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
have a process for submitting and tracking issues requiring attention by the Wage and
Investment Division’s Submission Processing function and the Electronic Tax Administration
office. In addition, available front-end tax return validation controls were not being used.
These controls can prevent unnecessary tax return processing, error resolution activity by the
Submission Processing function, and correspondence with taxpayers.

The Modernized e-File System also makes e-filed tax return data available to the business
operating divisions and allows authorized users to access, print, and download tax return
information. However, because of system limitations, the Large and Mid-Size Business
Division and the Tax Exempt and Government Entities Division use their own applications to
access Modernized e-File System filed tax return data. The Small Business/Self-Employed
Division does not use the Modernized e-File System for tax return control, delivery, or
examination processes, nor does it capture cost data for printing, shipping, and handling of tax
returns filed using the Modernized e-File System.

TIGTA recommended that the IRS:

   1) Develop a formal process for identifying, reporting, and resolving Modernized e-File
      System application processing issues that require subsequent tax return and account
      adjustment activity;
   2) Perfect the validation controls in the Modernized e-File System to verify that taxpayers
      file the correct tax form based on their established filing election; and
   3) Coordinate the capabilities of the Enterprise Return Retrieval System and the Small
      Business/Self-Employed Division’s Technology and Data Integration Plan into the
      Information Technology MVS.

IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference No. 2008-20-122

Customer Account Data Engine Project Management Practices
The IRS has developed a strategy for a phased replacement of its computer systems to better
support today’s tax laws, tax policies, and taxpayer needs. As the centerpiece of the IRS’s
Modernization program, the CADE is an essential project in this strategy. The modernized
CADE database will allow the IRS to update taxpayer accounts, support account settlement and
maintenance, and process refunds daily, which will contribute to improved service to taxpayers.
However, long-term objectives and the ability to adjust for unplanned initiatives have
challenged the IRS’s ability to meet the goal of having the CADE perform as the
Modernization program’s centerpiece.

Although the project team has made progress to ensure that CADE releases contain a
reasonable scope of work and sufficient staffing, long-term issues continue to challenge the



       TIGTA Semiannual Report to Congress                                                     13
       April 1, 2008 – September 30, 2008
CADE project. The CADE’s ability to access historical taxpayer account information currently
residing on the Individual Master File must be resolved to enable requirements for soon-to-be-
developed releases. Additionally, with the expectation of significant increases in the CADE
taxpayer population, processing capacity and data storage meeting the future operational
requirements need to be considered.

The processing of payments related to the Economic Stimulus Act of 2008 3 put the CADE
Release 4 Project Schedule at risk. In January 2008, the IRS engaged the PRIME contractor 4 to
conduct an impact analysis and develop a preliminary design assessment for the work needed
for the CADE to process economic stimulus payment checks. The project team included the
work related to this effort in the scope of Release 4 with a task order modification. However,
the IRS did not have funds appropriated for this work until the effort was already underway.

TIGTA recommended that the IRS:

    1) Ensure that a Historical Data Conversion solution is in place to enable the CADE to
       process transactions related to issues such as balance-due conditions;
    2) Develop an updated estimate of the processing and storage requirements (including the
       related costs) to support the long-term objectives and goals of CADE operations; and
    3) Use a standardized process, including measurement and reporting to appropriate parties,
       to determine the effect on the CADE project’s scope, cost, and delivery schedules when
       unplanned initiatives are mandated for implementation.

IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference No. 2008-20-151

Tax Compliance Initiatives
Tax compliance initiatives include administering tax regulations, collecting the correct amount
of tax for businesses and individuals, and overseeing tax-exempt and government entities for
compliance. Increasing voluntary compliance and reducing the Tax Gap are currently the focus
of IRS initiatives. Nevertheless, the IRS is facing significant challenges in obtaining complete
and timely data, as well as developing the methods necessary for interpreting the data. The IRS
must continue to seek accurate measures for the various components of the Tax Gap and the
effectiveness of the actions taken to reduce it.

The Department of the Treasury and the IRS developed a multiyear strategy for improving
compliance and reducing the Tax Gap. However, the strategy is dependent on overcoming
several high-risk challenges. The strategy is significantly more comprehensive and detailed
3
  Pub. L. No. 110-185, 122 Stat. 613
4
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’s efforts to modernize its computer systems and related
information technology.

    14                                                          TIGTA Semiannual Report to Congress
                                                                   April 1, 2008 – September 30, 2008
than previous efforts. The strategy identifies seven components that support a multifaceted
approach to reducing the Tax Gap: reducing opportunities for evasion; making a multiyear
commitment to research; continuing improvements in information technology; improving
compliance activities; enhancing taxpayer service; reforming and simplifying the tax law; and
coordinating with partners and stakeholders. The long-term success of the strategy will, in
large part, be dependent on addressing several risk factors, some of which are beyond the
control of the IRS. As a result, broader strategies and better research may be needed to
determine what actions are most effective in addressing noncompliance.

IRS Compliance Trends
During FY 2007, many of the IRS’s compliance activities increased, resulting in improved
collections. Since FY 2000, the IRS has reversed numerous downward trends in compliance
activities that had occurred in prior years. Some of the positive changes might be attributable
to management emphasis on Collection and Examination function programs. Over the last few
years, the Small Business/Self-Employed Division has implemented reengineering and
organizational changes, and both the Collection and Examination functions continue to study
ways to improve their workload selection.

The level of compliance activities and the results obtained in many Collection functional areas
showed a continued increase. Use of collection enforcement tools was greater and enforcement
revenue collected continued to increase (to $59.2 billion), but the total dollar amount of
uncollected liabilities increased to $290 billion. By the end of FY 2007, the gap between new
delinquent account receipts and closures had widened by 63 percent.

During FY 2007, the overall percentage of tax returns examined increased by almost 9 percent,
even though the number of field examiners decreased by just over 4 percent. In addition, the
overall percentage of tax returns examined was 2 percent higher than in FY 1998. The number
of individual tax returns examined increased. However, 83 percent were conducted via
correspondence examinations, which are usually not as comprehensive as face-to-face
examinations. Also in FY 2007, the number of corporate tax returns that were examined
increased by just over 4 percent, after decreasing 1 percent in FY 2006. However, this number
has decreased almost 45 percent since FY 1998.

Due to the nature of this review, TIGTA made no recommendations in the report. However,
key IRS management officials reviewed the report prior to issuance and agreed with the facts
and conclusions.
Report Reference No. 2008-30-095

IRS Enforcement Trends
Results of several key performance measures that had declined in prior years improved during
FY 2007. For example, the number of subject investigations initiated increased 7.8 percent, the
number of subject investigations recommended for prosecution increased 4.3 percent, and the


       TIGTA Semiannual Report to Congress                                                     15
       April 1, 2008 – September 30, 2008
numbers of subjects convicted and sentenced increased 6.7 percent and 5.1 percent,
respectively. In addition, the Department of Justice acceptance rate for the Criminal
Investigation Division’s (CID’s) prosecution cases increased to 94.6 percent from 92.2 percent
in FY 2006. Similarly, the acceptance rate by U.S. Attorney Offices for the CID’s prosecution
cases increased to 90.2 percent from 88.3 percent in FY 2006.

Continued progress in enforcement of the tax laws and prosecution of criminal tax violations is
important to enhancing voluntary compliance by taxpayers and fostering confidence in the
integrity of the tax system.

Due to the nature of this review, TIGTA made no recommendations in the report. However,
key IRS management officials reviewed the report prior to issuance and agreed with the facts
and conclusions.
Report Reference No. 2008-10-133

Use of Penalties to Encourage Compliance
According to the Internal Revenue Manual, penalties exist to encourage voluntary compliance
by supporting the standards of behavior expected by the I.R.C. Penalties encourage voluntary
compliance by:

       •    Defining standards of compliant behavior;
       •    Defining remedial consequences for noncompliance; and
       •    Providing monetary sanctions against taxpayers who do not meet the standards.

However, penalties are not consistently used. TIGTA evaluated the IRS’s actions to address
underwithholding of taxes on wages. Not only has the IRS not taken enforcement actions
against employers who do not comply with notices (known as lock-in letters), it also generally
does not penalize taxpayers for making false statements on the Employee’s Withholding
Allowance Certificate (Form W-4) that result in the underwithholding of taxes. The I.R.C. 5 and
related tax regulations allow assessment of a $500 civil penalty for furnishing a false statement
on the Form W-4 if:

       1) The statement made on the Form W-4 results in less income tax withheld than what
          would have been withheld if the Form W-4 had been correctly completed; and
       2) There was no reasonable basis for such a statement.

The IRS is not following its own procedures to consider penalties for taxpayers referred from
other IRS functions for underwithholding. If the IRS had been following its procedures, it
could have assessed potentially $11 million in civil penalties. The following table shows the
number of lock-in letters issued and the number of penalties assessed:



5
    I.R.C. § 6682.

       16                                                  TIGTA Semiannual Report to Congress
                                                              April 1, 2008 – September 30, 2008
         Figure 1: Taxpayers Issued Lock-in Letters Compared to Form W-4 Civil
                        Penalties Assessed in FYs 2006 and 2007
                    Taxpayers               Referred                          Total
        Fiscal                                                Penalties
                   Issued Lock-        Taxpayers Issued                     Penalty
        Year                                                  Assessed
                     in Letters         Lock-in Letters                    Amount 6
         2006               122,140                       9,182                      29              $14,500
         2007               131,803                      12,786                      0                  $0
       Source: IRS Withholding Compliance Program management and TIGTA analysis of Individual
       Master File data.

TIGTA made several recommendations that included:

    1) Developing a process to identify employers who do not adequately withhold taxes after
       receiving a lock-in letter;
    2) Developing criteria that will expand the use of the Form W-4 civil penalty beyond the
       current limited use; and
    3) Providing related guidance and training to ensure consistent application of the criteria.

IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference No. 2008-40-167

Accuracy of Notices
The IRS Oversight Board expressed concern about the accuracy of notices sent to taxpayers
when there is a discrepancy between the income reported by the taxpayer and the amount
reported by the payor. The CP 2000 notice 7 is the primary notice that the IRS issues to
taxpayers as a result of underreporting discrepancies. From the approximately 1.3 million
cases closed in FY 2007 (related to Tax Year (TY) 2005 returns), TIGTA reviewed a sample of
CP 2000 notices sent to 138 taxpayers for accuracy and found that 7 (5.1 percent) taxpayers
had inaccurate assessments. Employee errors on the CP 2000 notices resulted in some
taxpayers being overassessed a total of $18,968 and others being underassessed a total of
$1,146 in tax.

While errors identified were a result of employee mistakes, TIGTA believed that the
complexity of the CP 2000 notices might also be a contributing factor in taxpayers agreeing to
incorrect assessments. During FY 2007, customer satisfaction surveys for the Automated
Underreporter Program (Program) indicated that, depending on the survey quarter, 24 to 32

6
  The total penalty amount was calculated by multiplying the $500 penalty by the number of penalties assessed
during the fiscal year (i.e., $500 x 29 = $14,500).
7
  The CP 2000 notice is an IRS letter sent to a taxpayer to resolve discrepancies between income, credits, and/or
deductions claimed on a tax return and those reported by a third party, and to propose an additional tax assessment.


         TIGTA Semiannual Report to Congress                                                                     17
         April 1, 2008 – September 30, 2008
percent of the taxpayers who responded stated that their primary reason for calling the IRS was
to have someone explain the CP 2000 notice to them.

TIGTA recommended that the IRS:

   1) Ensure that management incorporates additional information on notice review
      procedures and quality service expectations into its refresher training for Program
      employees;
   2) Simplify the CP 2000 notices issued by the Program; and
   3) Ensure that Program management monitors site compliance with requirements to submit
      and implement corrective action plans when notice review error rates exceed 10
      percent.

IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference No. 2008-40-180

Security of the Internal Revenue Service
Millions of taxpayers entrust the IRS with sensitive financial and personal data stored and
processed by IRS computer systems. Recent reports of identity theft from both the private and
public sectors have heightened awareness of the need to protect this data. The risks that
sensitive data could be compromised and that computer operations could be disrupted continue
to increase. These risks are due to internal factors such as the increased connectivity of the
computer systems and the increased use of laptop computers, and external factors such as the
volatile threat environment resulting from increased terrorist and hacker activity.

To maintain adequate security over sensitive taxpayer data, the IRS must implement controls at
all levels of its computer environment to guard against external intruders as well as malicious
employees and contractors who have been given access to IRS systems to carry out their
responsibilities. For example, controls are needed at the perimeter to keep unauthorized
persons from intruding into IRS systems, the network architecture used to transmit data back
and forth, and the applications and databases used to store taxpayer data.

Control Weaknesses at IRS Internet Connections
The IRS has three primary Internet gateways that make it possible for employees to
communicate with outside partners and carry out other tax administration duties. However,
audit logs were not adequately saved and reviewed, and the gateways had weak security
configuration settings. These weaknesses increase the likelihood that intruders from the
Internet could gain access to sensitive taxpayer data residing on the IRS network without being
detected.




   18                                                   TIGTA Semiannual Report to Congress
                                                           April 1, 2008 – September 30, 2008
To strengthen security controls over audit logs, TIGTA recommended that the IRS ensure that:

    1) Someone other than the database or system administrator reviews the logs;
    2) Audit log data are transmitted to two separate servers; and
    3) Audit logs are configured to show time stamps for events using the Coordinated
       Universal Time. 8

To ensure that security configuration settings on routers and firewalls are adequate and
consistent, the IRS should require that the Enterprise Networks and the Cybersecurity
organizations develop standard security configurations and that the Enterprise Networks
organization regularly tests the firewalls and routers to ensure compliance with the
configurations.

The IRS agreed with the recommendations and has planned to take appropriate corrective
action.
Report Reference No. 2008-20-143 (Sensitive But Unclassified)

Unauthorized Internal Web Servers
A Web server is a computer that contains the software necessary for a Web site to operate.
During the time of TIGTA’s review, 1,811 internal Web servers on the IRS network had not
been approved to connect to the network, and 2,093 internal Web servers connected to the
network had at least one security vulnerability. These unauthorized and insecure Web servers
placed both the computers and the entire IRS network at risk of unauthorized access to taxpayer
and personally identifiable information.

TIGTA recommended that the IRS:

    1) Establish official ownership and responsibility for the Web registration program;
    2) Enforce IRS procedures to block unauthorized Web servers from providing data over
       the IRS network; and
    3) Require an annual scan of Web servers and compare the Web server to the Web
       registration database to identify unauthorized Web servers.

Unauthorized Web servers should be immediately disconnected from the IRS network, and
inappropriate Web sites should be referred to the TIGTA Office of Investigations. In addition,
the IRS should require quarterly network scans of Web servers to measure compliance with
security requirements.




8
  Coordinated Universal Time is a high-precision atomic time standard. It closely tracks Universal Time, which is
a time standard based not on the uniform passage of seconds but on the Earth's angular rotation.


        TIGTA Semiannual Report to Congress                                                                    19
        April 1, 2008 – September 30, 2008
IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference No. 2008-20-159

IRS Modernized Systems Have Known Security Vulnerabilities
The CADE system will provide the foundation for managing all taxpayer accounts and will
replace existing tax processing systems. The AMS will interface with the CADE and provide
IRS employees faster and improved access to taxpayer account data. Security weaknesses in
the controls over sensitive data protection, system access, monitoring of system access, and
disaster recovery have continued to exist, although key phases of the CADE and the AMS have
been deployed. As a result, the IRS is jeopardizing the confidentiality, integrity, and
availability of an increasing volume of tax information for millions of taxpayers as application
releases are put into operation.

TIGTA recommended that the IRS consider all vulnerabilities that affect the overall security of
the CADE and the AMS before approving unconditional milestone exits. In addition, the
CADE and AMS Project Managers should place more emphasis on preventing and resolving
security vulnerabilities identified during Enterprise Life Cycle processes. TIGTA also
recommended that the IRS recommend and approve interim authorities to operate when
significant security vulnerabilities exist in system environments, and continue efforts to
improve the accuracy and completeness of risk information in the security assessment reports.
The IRS should also approve interim authorities to operate when significant security control
weaknesses exist in system environments.

IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference No. 2008-20-163

Providing Quality Taxpayer Service Operations
Since the 1990s, the IRS has improved its delivery of quality customer service to taxpayers. In
fact, in its current strategic plan, the IRS’s first goal is to improve taxpayer service. However,
since the late 1990s, the IRS has allocated more resources to its collection, examination, and
criminal investigation functions and fewer resources to taxpayer service functions. As a result
of this resource shift and other factors, in July 2005, Congress requested that the IRS develop a
five-year plan, including an outline of which services the IRS should provide and how it would
improve services for taxpayers. In response, the IRS developed the Taxpayer Assistance
Blueprint to help it focus on providing the appropriate types and amounts of service. However,
the IRS is already facing challenges with the Blueprint. As the IRS moves forward,
inaccuracies and inconsistencies will put the Blueprint at risk of improperly aligning service
content, delivery, and resources with taxpayer and partner expectations.




   20                                                    TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
Rejected Electronic Tax Returns
The IRS rejected more than 6.8 million (8.5 percent) of the nearly 80 million electronically
filed (e-filed) tax returns it received for TY 2006. More than 5.4 million of these returns were
corrected and successfully e-filed. The methods currently used to assist customers with
rejected e-filed returns are burdensome for the customer and create unnecessary expenses for
the IRS, and resulted in the IRS maintaining redundant information in multiple systems.
Providing a self-assistance option would help the IRS ensure that it continues to deliver a high
level of service and support to customers who participate in electronic filing (e-file).

TIGTA recommended that the IRS:

   1) Develop a self-assistance option on IRS.gov (the public IRS website) that allows
      customers to obtain detailed explanations of e-file reject conditions, including the steps
      to resolve them; and
   2) Develop a business case for determining the feasibility of providing in the e-file
      acknowledgement file the information that would allow customers to resolve their reject
      conditions once individual tax returns are transitioned to the Modernized e-File System.

IRS management agreed with the first recommendation and disagreed with the second. With
regard to the first, for the 13 most common reject codes, a self-assistance option providing
descriptions and suggested solutions was added to IRS.gov. IRS management also plans to
study the feasibility of adding a more comprehensive self-assistance option to IRS.gov. IRS
management disagreed that a business case to determine the feasibility of providing
information in the e-file acknowledgement file for customers to resolve their reject conditions
is necessary. As the IRS transitions to the Modernized e-File System, customers will be
provided reject codes that contain a clear and concise explanation of the reject conditions. This
transition is scheduled for implementation by September 2009.

TIGTA agreed that the Modernized e-File System should provide customers with explanations
of error reject codes. However, error explanations alone, no matter how clear and concise, will
not consistently communicate the steps required to correct the errors.
Report Reference No. 2008-40-128

Economic Stimulus Payments
The Economic Stimulus Act of 2008
was passed February 13, 2008, to
energize the national economy.
The first payments were issued
May 2, 2008. Most of the IRS’s
planning and implementation
activities had to take place during
the IRS’s busiest time of the year,


       TIGTA Semiannual Report to Congress                                                     21
       April 1, 2008 – September 30, 2008
the tax filing season. In addition, individuals must have filed a 2007 tax return to receive a
stimulus payment. The IRS estimated that an additional 20 million individuals who do not
normally need to file a tax return would file. The IRS expected to issue more than $100 billion
in stimulus payments to more than 130 million households.

Following are examples of reviews completed by TIGTA to date. TIGTA will continue to
evaluate the IRS’s efforts to ensure that all eligible individuals receive a stimulus payment.
Because of the significance and potential risks associated with the planning and issuance of
economic stimulus payments, TIGTA planned to conduct its audit work in four phases. The
first two phases, which evaluated the planning, computation, and the issuance of the checks as
well as an evaluation of the controls to prevent erroneous or improper checks, are completed.
This required rapid planning and coordination to evaluate the IRS’s efforts to provide real-time
feedback and recommendations.

Planning Efforts for the Issuance of Economic Stimulus Payments
The most significant part of the Economic Stimulus Act of 2008 was the individual stimulus
payment. The economic stimulus payment is a credit for TY 2008. However, the payments
were estimated using income figures reported on TY 2007 tax returns and were issued in 2008,
so individuals can benefit from the payments as soon as possible.

Recognizing that the stimulus payments would affect millions of individuals, the IRS designed
a wide-reaching media campaign focused on educating individuals on the requirements to
receive the stimulus payment along with ways to receive assistance. A number of methods
were used to inform and notify all eligible individuals and households about the stimulus
payments. This included media contacts, public service announcements, information on the
IRS Web site, issuance of advance notices, and partnering with other Federal Government
agencies and organizations. The IRS also established tools to provide assistance to the
anticipated thousands of individuals who would contact the IRS with stimulus payment
questions. This assistance had to be provided without harming service to taxpayers who were
in the process of filing their annual income tax returns.

Although the IRS’s planning for the stimulus payments was generally sufficient, TIGTA noted
areas where improvements were needed. The IRS addressed these concerns as they were
brought to management’s attention. Addressing these concerns in a timely manner helped
ensure that accurate and consistent information was provided to millions of individuals
regarding requirements for receiving the payment, and helped reduce the risk of errors when
stimulus-only returns were processed and payments were issued.
Report Reference No. 2008-40-149

Evaluation of the Computation of Economic Stimulus Payments
In preparing for computing the amount individuals would receive for an economic stimulus
payment, the IRS was required to take a number of actions. These included:




   22                                                   TIGTA Semiannual Report to Congress
                                                           April 1, 2008 – September 30, 2008
    •    Coordinating with the Department of the Treasury to ensure correct interpretation of the
         law;
    •    Obtaining and reviewing the specific statutory language to identify requirements that
         must be met to qualify for an economic stimulus payment;
    •    Developing computer programming to identify characteristics included on a tax return
         that result in an individual not qualifying for an economic stimulus payment; and
    •    Developing computer programming to identify characteristics included on a tax return
         to be used to calculate the economic stimulus payment.

The IRS correctly calculated 99.6 percent of the 129.1 million economic stimulus payments
TIGTA reviewed. In addition, IRS programs ensured that payments were not issued to
individuals who were not entitled to receive an economic stimulus payment. These included
individuals who:

    1)   Did not have a valid Social Security Number;
    2)   Did not meet qualifying income, gross income, and net tax liability requirements;
    3)   Had income that exceeded requirements; and
    4)   Indicated that they can be claimed by someone else on a tax return.

Although the accuracy rate for economic stimulus payments was very high, TIGTA identified
539,550 returns (0.4 percent) for which its calculation of the payment and the IRS’s calculation
did not agree. Most of the differences identified resulted from business decisions made by the
IRS in concurrence with the Department of the Treasury, taxpayer errors, and/or tax software
errors.

TIGTA made no recommendation in this report. However, IRS management agreed that the
accuracy rate for the economic stimulus payments was very high.
Report Reference No. 2008-40-174

Increased Call Volume Associated With Economic Stimulus Payments
Each year, millions of taxpayers contact the IRS by calling the various toll-free telephone
assistance lines to seek help in understanding tax laws and meeting their tax obligations. The
IRS had planned to achieve an 81.1 percent Level of Service and a 270-second Average Speed
of Answer for the 2008 Filing Season. 9 However, because of the large volume of calls related
to the economic stimulus payments, it instead achieved a 77.4 percent Level of Service and a
347-second Average Speed of Answer, indicating that the ability of taxpayers to access the
toll-free telephone lines was lower than that in prior years.

Due to the anticipated volume of calls about the rebates, the IRS implemented a series of
automated messages to address rebate questions during the 2008 Filing Season. Management
9
 Level of Service is the IRS’s primary measure of providing taxpayers with access to an assistor. Average Speed
of Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.


         TIGTA Semiannual Report to Congress                                                                 23
         April 1, 2008 – September 30, 2008
decided not to route callers back to the main menu because the IRS assumed that once the
caller had heard the rebate message, the caller would require no further information or would
go to the IRS’s Web site, IRS.gov.

TIGTA’s recommendations included ensuring that callers had the option of returning to the
main menu when the IRS used a recorded message to provide information to taxpayers. The
IRS disagreed with this recommendation.
Report Reference No. 2008-40-168

Human Capital
The Federal workforce is aging, and agencies are faced not only with retirements and staff
turnover, but also with the unique challenges of the 21st Century. The IRS recognizes that it
must be prepared to respond to a growing and more demanding population, a more global and
multilingual environment, and an increasing number of taxpayers who have complex financial
holdings, and the means and motives to resist paying their taxes. 10 In addition, the IRS, along
with other Federal agencies, is slowly moving toward changing pay, classification, and
performance management systems to transition to a more market-based and performance-
oriented culture.

Strategic Human Capital Management
The IRS has not made substantial progress in developing and implementing an agency-wide
process that will consistently and accurately project future human resource needs. If accurate
projections are not made, the IRS might struggle to fill unforeseen vacancies, which could
affect overall service to taxpayers. The potential loss of a large number of employees increases
the importance of the IRS having a process in place to fill anticipated vacancies quickly and
effectively.

The IRS has recognized this and has acted to identify potential qualified leaders to ensure
continuity and stability, and it has established some key parts of a workforce planning
foundation. Additional actions are necessary to ensure that the IRS can fully identify qualified
candidates for future leadership positions and assess its efforts. If these actions are not taken, it
will be difficult for the IRS to assess the progress of its leadership succession efforts, and more
importantly, it will be difficult for the IRS to determine whether it can in a timely manner
identify potential future leaders with the skills to address future challenges.

TIGTA recommended that the IRS develop a written strategic leadership succession plan and
establish a more collaborative, integrative process to implement agency-wide roles and
responsibilities for effectively creating, refining, and using projections of future human
resource needs. In addition, TIGTA recommended that the IRS:



10
     IRS, Publication No. 3744, IRS Strategic Plan: 2005-2009, (revised 6-2004).

       24                                                          TIGTA Semiannual Report to Congress
                                                                      April 1, 2008 – September 30, 2008
       1) Prepare a plan specifying the key activities that should be completed in the short term to
          ensure that the leadership succession program continues to move forward; and
       2) Revise written guidance and develop agency-wide templates for more consistent
          projections of future human resource needs.

IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference Nos. 2008-10-132 and 2008-10-169

Erroneous and Improper Payments
As defined by the Improper Payments Information Act of 2002, 11 an improper payment is any
payment that should not have been made or that was made in an incorrect amount (including
overpayments and underpayments) under statutory, contractual, administrative, or other legally
applicable requirements. It includes any payment to an ineligible recipient, any payment for an
ineligible service, any duplicate payment, payments for services not received, and any payment
that does not account for credit for applicable discounts. For the IRS, improper and erroneous
payments generally involve improperly paid refunds, tax return filing fraud, or overpayments to
vendors or contractors.

An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006
and 2007 Filing Seasons
The IRS’s CID Questionable Refund Program is a nationwide, multifunctional program
designed to detect and stop fraudulent claims for refunds on income tax returns. TIGTA
estimated that the number of potentially fraudulent returns that would have been identified
without threshold restrictions rose by an alarming 70 percent between PYs 2006 and 2007. As
a result, the IRS worked only 48.7 percent of these returns, potentially allowing $742 million in
fraudulent refunds to be issued. If this trend continues over the next few years, the IRS might
issue an even greater number of fraudulent refunds, possibly resulting in a significant annual
revenue loss to the Federal Government. As a result, additional burden is placed on honest
taxpayers whose tax dollars are being used to support this criminal activity.

TIGTA made several recommendations, including that the IRS:

       1) Develop a more urgent approach to achieving the legislative change that will exempt
          the IRS from having to issue statutory notices of deficiency on fraudulent returns;
       2) Develop a long-term, strategic approach to balancing available resources with the
          growth in refund fraud;
       3) Review potentially fraudulent prisoner returns identified during PY 2006 and pursue
          recovery or offset through future non-fraudulent refunds;

11
     Pub. L. No. 107-300, 116 Stat. 2350.


           TIGTA Semiannual Report to Congress                                                   25
           April 1, 2008 – September 30, 2008
   4) Identify all fraudulent PY 2006 tax returns for which the PY 2007 return was verified as
      being false; and
   5) Implement procedures to ensure that suspicious tax returns filed with an attached U.S.
      Individual Income Tax Return (Form 1040) Profit or Loss From Business (Schedule C)
      are identified by the fraud detection system during future processing years.

IRS management agreed with most of the recommendations and has planned to take
appropriate corrective actions. However, IRS management disagreed with the recommendation
to pursue recovery or offsets of payments associated with the PY 2006 fraudulent prisoner
returns.

TIGTA continues to believe that several of the corrective actions to the recommendations will
not fully address the reported concerns. These recommendations need to be reconsidered as
part of the Pre-Refund Program Office’s long-term strategy.
Report Reference No. 2008-10-172

Accuracy of Tax Refund Direct Deposits
The IRS states that having direct deposit provides taxpayers with a faster, more secure, more
convenient means by which to receive their tax refunds. However, the IRS has not developed
processes to ensure that the tax refunds were deposited only to an account in the name of the
filer. Analysis of IRS direct deposit data identified bank accounts receiving multiple (three or
more) tax refunds. For CY 2007, over 700,000 bank accounts received three or more tax
refunds, totaling approximately $8.14 billion. Twelve bank accounts received over 1,000 direct
deposit tax refunds with one receiving over 58,000 refunds.

Taxpayer refunds can be deposited into a wrong bank account as a result of an error. When
direct deposits are made to the wrong account, the assistance provided to taxpayers is
inconsistent. Specifically, the IRS has not established a consistent process to assist taxpayers in
recovering their tax refunds when erroneously deposited. The inability of the IRS to ensure the
accuracy of direct deposit account information increases fraud potential and taxpayer burden.

TIGTA recommended that the IRS:

   1) Coordinate with responsible Federal agencies and banking institutions to develop a
      process to ensure that direct deposit payments are made only to a deposit account in the
      name of the recipient, and until a process is in place, should limit the number of direct
      deposits being sent to the same account;
   2) Develop an education campaign to clearly alert taxpayers and tax return preparers of the
      requirement that direct deposits be made only to accounts in the name of a recipient;
      and
   3) Improve procedures for assisting taxpayers in recovering their erroneously deposited tax
      refunds.




   26                                                    TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
IRS management disagreed with most of the first recommendation but agreed with the second
and third recommendations. Although IRS management agreed that coordination between
responsible Federal agencies and banking institutions is necessary to develop a direct deposit
process, IRS officials do not believe they should initiate this coordination. In addition, the IRS
disagreed with the recommendation to limit the number of direct deposits to the same account,
but offered no alternative actions to reduce the potential fraud associated with multiple direct
deposits to the same account.
Report Reference No. 2008-40-182

Taxpayer Protection and Rights
The IRS continues to place increased emphasis on tax compliance activities, such as better
identifying corporations and individuals who fail to report or do not pay what they owe.
However, all collection efforts must be balanced against the rights of taxpayers to receive fair
and equitable treatment, both in the assessment of taxes and in all initiatives undertaken to
collect open account balances. In summary, all collection efforts must ensure that
taxpayer rights are protected.

Private Debt Collection Program
The I.R.C. authorizes the IRS to enter into contracts with private collection agencies to assist
in the collection of delinquent Federal taxes. Although many of the Private Debt Collection
program procedures were being followed, improvements can be made in how a taxpayer’s
identity is authenticated, how contractors handle taxpayer requests to opt out of the program,
the quality control system, and case processing. These improvements will help to ensure that
taxpayer rights are protected during the collection process.

TIGTA made several recommendations including that the IRS:

   1) Continue to monitor the contractors’ authentication process and implement
      improvements as necessary to assist contractors in increasing the number of
      authenticated taxpayer contacts;
   2) Ensure that the Quality Unit provides statistically valid, weighted estimates of quality,
      conducts the required number of case action reviews, and that it has the quality analysts
      meet with the Statistics of Income Division staff semiannually; and
   3) Ensure that the Quality Unit establishes a procedure for backup quality analysts to
      conduct telephone monitoring and case action reviews as needed.

IRS management agreed with the recommendations and has taken or has planned appropriate
corrective actions.
Report Reference No. 2008-30-157




       TIGTA Semiannual Report to Congress                                                         27
       April 1, 2008 – September 30, 2008
Processing Returns and Implementing Tax Law Changes During the Tax
Filing Season
Each filing season tests the IRS’s ability to implement tax law changes made by Congress. It is
during the filing season that most individuals file their income tax returns and call the IRS with
questions about specific tax laws or filing procedures. Correctly implementing tax law changes
is a continuing challenge, because the IRS must identify the tax law changes, revise the various
tax forms, instructions, and publications, and reprogram the computer systems used for
processing returns. Changes to the tax laws have a major effect on how the IRS conducts its
activities, what resources are required, and how much progress can be made on strategic goals.
Congress frequently changes the tax laws; thus, some level of change is a normal part of the
IRS environment. However, certain types of changes can significantly impact the IRS in terms
of its quality and effectiveness of service and in how taxpayers perceive the IRS.

Alternative Minimum Tax Discrepancies
The number of taxpayers affected by the Alternative Minimum Tax (AMT) is expected to grow
significantly in the next ten years if Congress does not continue to increase exemption amounts.
AMT revenue increased from $16.7 billion for TY 2005 to $21.4 billion for TY 2006.
Determining whether the AMT is owed is complex and time-consuming, and the complexity
causes taxpayer errors. Recognizing the complexity of the AMT, the IRS provides taxpayers
with tools to determine whether they will have to prepare an Alternative Minimum Tax–
Individuals (Form 6251) to determine their AMT liabilities.

In CY 2006, computer checks identified about 226,000 discrepancies between the AMT figures
reported, or not reported, by the taxpayers and the amounts computed by the IRS. TIGTA
reviewed a random sample of 52 tax returns filed in CY 2006 on which IRS computers
identified a discrepancy. For all 52 cases, computer checks correctly identified that there was a
discrepancy, and the cases were correctly sent to tax examiners for further review. However,
examiners did not follow procedures when resolving 11 (21 percent) of the 52 cases. Of these
11 cases, 3 resulted in the examiners incorrectly computing the amount of tax owed. Correct
identification and resolution of discrepancies is essential to avoid further increasing the burden
for taxpayers subject to the AMT.

TIGTA recommended and the IRS agreed that it should provide information to tax examiners
reiterating the importance of correctly resolving AMT discrepancies and highlighting specific
issues that could lead to incorrect resolution.
Report Reference No. 2008-40-146

2008 Filing Season
The filing season (January through April 15th) is critical for the IRS because it is the time when
most individuals file their income tax returns and contact the IRS if they have questions about
specific tax laws or filing procedures. The 2008 Filing Season presented additional challenges
for the IRS due to the late and unexpected enactment of two significant tax laws -- the Tax


   28                                                    TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
Increase Prevention Act of 2007, signed on December 26, 2007, limiting the number of
taxpayers who would be subject to the AMT for TY 2007, and the Economic Stimulus Act of
2008, signed on February 13, 2008. Through May 30, 2008, the IRS had received 144.2
million individual tax returns. Of those, approximately 86.7 million were electronically filed
and approximately 57.5 million were filed on paper.

TIGTA conducted filing season audits that addressed the IRS’s efforts to accurately process tax
returns as well as the accuracy of tax returns prepared by unenrolled preparers and volunteers.
Following is a synopsis of these reviews:

Late Tax Legislation
In spite of the late and unexpected enactment of two significant tax laws, the IRS generally had
a successful 2008 Filing Season. Most key tax law and administrative changes were correctly
implemented, and the IRS completed processing returns on schedule and issued refunds within
the required 45 calendar days of the April 15, 2008 due date. While the IRS was able to meet
the challenges of late and unexpected enacted legislation and accurately process most returns in
a timely manner, TIGTA identified the following opportunities to improve the processing of
some tax deductions:

   •   Taxpayers improperly claimed the Qualified Mortgage Insurance Premiums deduction;
   •   Taxpayers age 70½ or older improperly claimed the Individual Retirement Account
       deduction;
   •   Taxpayers did not claim the sales tax deduction; and
   •   Taxpayers who improperly claimed a “dual benefit” for both the tuition and fees
       deduction and the Education Credit are not receiving the dual benefit. However,
       improvements still need to be made in processing these returns.

TIGTA recommended that the IRS:

   1) Ensure that the computer systems are programmed to identify taxpayer returns claiming
      the Qualified Mortgage Insurance Premiums deduction with Adjusted Gross Income
      that exceeds the maximum phase-out limitations;
   2) Ensure that the computer systems are programmed to identify taxpayer returns claiming
      Individual Retirement Account (IRA) deductions for taxpayers age 70½ or older;
   3) Continue to inform taxpayers that they are eligible for a sales tax deduction if they
      itemize and do not claim a State income tax deduction, if the sales tax deduction is
      extended beyond TY 2007. The possibility of calculating the sales tax deduction for
      taxpayers if it is not claimed or sending a notice to the affected taxpayers should be
      considered; and
   4) Revise or verify the computer programming to ensure that all taxpayers claiming a dual
      benefit are identified if the tuition and fees deduction is extended beyond TY 2007.



       TIGTA Semiannual Report to Congress                                                       29
       April 1, 2008 – September 30, 2008
        This should include verifying the programming to forward paper returns with this
        condition to the Error Resolution System for correction.

IRS management fully agreed with two of the recommendations and partially agreed with one
other recommendation. They did not agree to update computer programs to identify taxpayer
returns claiming IRA deductions for taxpayers age 70½ and older because math error authority
cannot be used for this condition. IRS management did, however, propose an alternative
approach to identify these taxpayers. In addition, IRS management agreed to continue to
inform taxpayers of eligibility for the sales tax deduction, but did not agree to calculate the
sales tax deduction for the taxpayer or to send a notice.
Report Reference No. 2008-40-183

Most Tax Returns Prepared by Some Unenrolled Preparers Contained
Significant Errors
Although taxpayers are ultimately responsible for the information reported on their tax returns,
millions of taxpayers rely on preparers to prepare correct tax returns. Currently, there are no
national standards that preparers are required to satisfy before selling tax preparation services
to the public. Because more than half of all taxpayers use preparers to file their tax returns,
preparers have a significant effect on taxpayer compliance.

In CY 2007, the IRS processed approximately 83 million individual Federal income tax returns
prepared by paid preparers. In February and March 2008, TIGTA auditors posed as taxpayers
in a large metropolitan area and paid to have 28 tax returns prepared at 12 commercial chain
and 16 small independently owned tax return preparation offices. The preparers were
unlicensed and unenrolled. That is, they were not practitioners (attorneys, Certified Public
Accountants, Enrolled Agents, or Enrolled Actuaries). Preparers often made substantial errors
when completing tax returns and correctly prepared only 11 (39 percent) of the 28 tax returns
where the tax returns showed the correct amount of taxes owed or the refunds due. However,
17 tax returns (61 percent) were prepared incorrectly:

   •    Eleven (65 percent) of the 17 returns contained mistakes and omissions that were
        considered to have been caused by human error and/or misinterpretation of the tax laws;
        and
   •    Six (35 percent) of the 17 contained misstatements and omissions that were considered
        to have been caused by willful or reckless conduct.

If these incorrect tax returns had been filed, the net effect to the Federal Government would
have been $12,828 in understated taxes (this is the net effect–there were instances in which tax
liabilities and tax refunds were both overstated and understated).

The IRS does not have one list or database for collecting information on preparers such as the
preparer’s name, associated identifying numbers, or whether the preparer is a practitioner or
unenrolled preparer. Additionally, the IRS does not require preparers to have a unique
identification number. The IRS acknowledges that it does not know how many paid preparers

   30                                                    TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
exist and cannot determine the full extent of noncompliance and incompetence among
practitioners.

TIGTA recommended that the IRS develop and require a single identification number to
control and monitor all paid preparers. IRS management agreed to study this issue. It plans to
commission a cross-functional team to study the feasibility and methodology associated with
requiring a single identification number to control and monitor all paid preparers. The IRS
plans to evaluate the results of the study and consider if it is feasible to implement.
Report Reference No. 2008-40-171

Free Tax Preparation Services
Millions of taxpayers borrow against all or part of their expected tax refunds to receive their
money more quickly through short-term loans called Refund Anticipation Loans (RAL), that
cost taxpayers fees and interest payments. During the 2008 Filing Season, almost 10 million
taxpayers borrowed against all or part of their expected tax refunds using RALs.
TIGTA conducted a telephone survey of 350 taxpayers whose IRS TY 2007 tax accounts
contained RAL indicators. Only 250 respondents claimed to have actually received RALs. 12
These respondents stated that they were aware they had received RALs and obtained these
loans to receive their money more quickly to pay bills. Most respondents received their loans
the same day of or within two business days of their tax return preparation. Respondents stated
that preparers made it clear they were receiving loans. Additionally, most respondents stated
that the preparers explained the fees and explained how long it would take for the taxpayers to
receive their tax refunds if they chose not to obtain the loans. More than one-half of the
respondents already had checking or savings accounts with financial institutions.

An analysis of taxpayer account data for the respondents showed that 158 (63 percent) received
the Earned Income Tax Credit. Additionally, the majority of all survey respondents would
have qualified for IRS’s free tax preparation assistance; however, 81 percent (284 of 350)
stated that they were unaware of these free services. Taxpayers may visit IRS walk-in offices
called Taxpayer Assistance Centers, Volunteer Income Tax Assistance sites, and Tax
Counseling for the Elderly sites, or use the Free-File Program to file their tax returns for free.
During the 2008 Filing Season, more than nine million taxpayers took advantage of these
services.

TIGTA recommended and the IRS agreed to use taxpayer account data for taxpayers who apply
for RALs and Refund Anticipation Checks to better focus the IRS’s marketing and education
efforts so that more taxpayers can make use of the available free services.
Report Reference No. 2008-40-170



12
  Taxpayers may not have actually received RALs, applied but did not obtain the loans, or actually received
Refund Anticipation Checks. A Refund Anticipation Check is a non-loan alternative to an RAL.


        TIGTA Semiannual Report to Congress                                                                   31
        April 1, 2008 – September 30, 2008
Using Performance and Financial Information for Program and
Budget Decisions
While the IRS has made some progress in using performance and financial information for
program and budget decisions, this area is still a major challenge. The IRS lacks a
comprehensive, integrated system that provides accurate, relevant, and timely financial and
operating data that describes performance measures, productivity, and associated program
costs. In addition, the IRS cannot produce timely, accurate, and useful information needed for
day-to-day decisions, which inhibits its ability to address financial management and operational
issues in order to fulfill its responsibilities. TIGTA has continued to report that various IRS
management information systems are insufficient to enable IRS management to measure costs,
determine if performance goals have been achieved, or monitor progress in achieving program
goals.

Benefits of Performance-Based Acquisition Are Not Being Fully Realized
When used properly, performance-based acquisition (PBA) increases performance, innovation,
and competition, and results in the Federal Government receiving better value for its
acquisitions. In addition, PBA shifts much of the risk from the Federal Government to industry
and allows the Federal Government to focus its monitoring efforts on the desired outcomes
rather than on how the work is to be performed. This saves taxpayer dollars because
significantly fewer contract administration resources are needed.

When used within the IRS, PBA was performed in accordance with established guidelines.
However, the IRS’s overall use of PBA is well below the goals established by the Federal
Government. Lack of internal expertise within program offices on how to implement PBA as
an acquisition strategy, insufficient time to complete procurements, lack of a vigorous planning
phase, and the inability of program managers to define requirements contributed to the
underuse of PBA.

TIGTA recommended that the IRS ensure that program office management develops and
implements a comprehensive plan to meet Federal Government goals for use of PBA methods.
These methods should emphasize the collective responsibility of program offices and the
procurement function to plan, manage, and execute PBA. Furthermore, if not already included,
the insertion of PBA use as a measure in individual performance standards might provide the
necessary incentive to achieve PBA goals and advantages. In addition, program personnel
involved in writing contract requirements should be trained in PBA methods. The IRS should
continue to advocate and educate program personnel on the benefits of PBA.

IRS management agreed with the recommendations and has planned to take appropriate
corrective actions.
Report Reference No. 2008-10-098




   32                                                   TIGTA Semiannual Report to Congress
                                                           April 1, 2008 – September 30, 2008
Improvements in the Distribution and Design of Internal Documents
In FY 2007, the IRS spent more than $237 million to print, process, and distribute internal
documents, tax publications, forms, and written correspondence (including notices) to
taxpayers and employees. The IRS can strengthen internal controls and increase oversight to
reduce costs for the publishing and postal budget. Taxpayers indirectly benefit when
management of tax administration is efficient and cost-effective.

TIGTA recommended that the IRS:

   1) Establish a control system to ensure that the level of inventory of tax products at
      Taxpayer Assistance Centers is cost-effective;
   2) Ensure that functional offices are aware of the significance of the Internal Management
      Document Distribution System (IMDDS);
   3) Establish and implement a system of internal controls to ensure that IMDDS data are
      current and reliable; and
   4) Enhance the notice improvement process to include reviews of all notices and letters to
      ensure that they use the fewest possible resources.

IRS management agreed with the recommendations and has taken or planned to take actions to
improve oversight and reduce costs.
Report Reference No. 2008-40-125




       TIGTA Semiannual Report to Congress                                                    33
       April 1, 2008 – September 30, 2008
          PROTECT THE INTEGRITY OF
            TAX ADMINISTRATION

T
        IGTA’s Office of Investigations accomplishes its investigative activities through the
        work of seven field divisions (see map on page 36), which are geographically located
        throughout the United States, and have direct reporting responsibilities to TIGTA
headquarters in Washington, DC. OI headquarters has three divisions and a forensic science
laboratory that perform support functions and provide technical and investigative assistance to
the field divisions, and one division that operates specialized programs. These headquarters
offices are:

•   Operations Division – Provides oversight and guidance to OI field and headquarters
    divisions, OI executives, and the Inspector General. The division consists of the following
    five teams:

       ♦ Complaint Management Team - Reviews and refers complaints received in
         TIGTA’s hotline and maintains OI’s investigative records.
       ♦ Policy Team - Prepares policy and procedures, reports and other documents for
         internal and external customers, responds to congressional inquiries, and oversees
         national programs.
       ♦ Data Analysis Team - Prepares, trends, and analyzes OI’s statistical data
         maintained in its management information system, and administers OI’s national
         budget.
       ♦ Inspection Team - Conducts internal reviews of field and headquarters operations.
       ♦ Training Team - Administers training to OI criminal investigators and support
         staff.

•   Strategic Enforcement Division – Executes an aggressive, proactive program to detect
    computer-based fraud in IRS operations, unauthorized accesses (UNAX) to IRS computer
    systems by internal users, and attempts to interfere with the security of IRS computers by
    external sources. The Strategic Enforcement Division has also teamed with the IRS to
    thwart phishing scams and minimize their impact on tax administration. One example of
    TIGTA and the IRS’s combined efforts to combat phishing is the issuance of press releases
    to warn taxpayers about new scams (see press release on page 37).

•   Technical and Firearms Support Division – Provides technical support, investigative
    assistance, equipment, training, and other specialized services to enhance OI’s investigative
    activities through programs that include land-mobile radio, firearms and officer safety, and
    electronic surveillance equipment.



       TIGTA Semiannual Report to Congress                                                     35
       April 1, 2008 – September 30, 2008
•   Special Inquiries and Intelligence Division – Conducts sensitive investigations involving
    IRS senior management officials, the IRS Oversight Board, and IRS Chief Counsel,
    criminal investigation, and international employees. The division also operates two
    specialized programs:

         1) A procurement fraud program that investigates allegations concerning IRS
            procurements and procurement-related misconduct by IRS employees and
            contractors; and
         2) A criminal intelligence program that provides field investigators with criminal
            intelligence and coordinates criminal intelligence collection and dissemination
            within TIGTA nationwide.

• Forensic Science Laboratory – Provides crime lab services in direct support of TIGTA
    investigations, including handwriting and document analysis, latent print identification, and
    expert witness testimony.

                                       OI Field Divisions




    36                                                   TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
                                    May 8, 2008

    TAXPAYERS’ HELP NEEDED TO SHUT DOWN ILLEGAL E-MAIL
      SCHEMES INVOLVING ECONOMIC STIMULUS PAYMENTS

DENVER – The United States Attorney’s office, the Treasury Inspector General for
Tax Administration (TIGTA) and the Internal Revenue Service today released the
following warning regarding Internet and e-mail schemes involving the Economic
Stimulus Payments.

Wide-spread e-mail schemes, known as “phishing,” that claim to come from the IRS
have become increasingly common. These e-mails appear to be legitimate, often
bearing the official seal and logo of the IRS. These schemes have covered a variety
of subjects, including tax refunds, audit notices, un-cashed Treasury checks and most
recently economic stimulus payments. In each of these schemes, the e-mail requests
that you provide personal or financial information. Often there will be a link in the
e-mail where the recipient can enter the requested information. The purpose is clear
– to defraud individuals and businesses of their money and identity information.
Between November 2005 to September 2007, TIGTA and the IRS received 32,576
complaints or inquires nationwide regarding these schemes.

“No credible or reputable business will ask you for your personal identification
information,” said Troy A. Eid, United States Attorney for the District of Colorado.
“Crooks are savvy, especially when it comes to the Internet. The U.S. Attorney’s
Office continues to prosecute those who defraud Coloradans.”

Terry Peacock, Special Agent in Charge for the TIGTA office headquartered in
Denver advised that his office has received 35 complaints specifically from Colorado
taxpayers. “Awareness is the best defense against these schemes. If taxpayers
recognize these scams for what they are it will prevent the loss of their personal and
financial information,” Mr. Peacock said.

Those who have received a questionable e-mail claiming to come from the IRS may
forward it (unaltered) to the IRS at phishing@irs.gov or go to www.irs.gov and click
on the bottom of the first page “Phishing and E-mail Scams.” Following these
instructions will help the IRS and TIGTA track the suspicious e-mail to its origin and
shut down the scheme. TIGTA investigates groups or individuals who impersonate
the IRS. If you have paid money or provided personal or financial information to
someone who falsely claimed to work for or represent the IRS, report the incident to
TIGTA at 1-800-366-4484.




 TIGTA Semiannual Report to Congress                                                     37
 April 1, 2008 – September 30, 2008
Internal Revenue Service Employee Misconduct
IRS employee misconduct can hinder the IRS’s ability to collect revenue for the Federal
Government. In addition to UNAX violations, TIGTA investigates other IRS employee
misconduct, such as theft, extortion, false statements, and financial fraud. TIGTA also
administers a proactive integrity program to help detect IRS employees who might be
committing fraud and other misconduct.

The following are examples of significant investigations TIGTA conducted during the reporting
period that involved IRS employee misconduct.

Revenue Officer Indicted in $13 Million Securities Fraud Scheme
In April 2008, Revenue Officer Luis Acosta-Andino was charged in Puerto Rico with securities
fraud and aiding and abetting.

According to the indictment, from about 2003 through about 2005, Acosta-Andino worked
part-time as a promoter and sales agent in the high-yield investment program of CIA Financial
Consulting Services, Inc. (CIA), a for-profit corporation in Puerto Rico. CIA solicited money
from unsuspecting investors in the general public by persuading them to provide money to CIA
to be invested in high-yield investment programs, and CIA guaranteed the investors a specific
monetary return. CIA was not registered nor licensed to offer or sell investments to the general
public.

In one program, CIA offered and sold investments through investment contracts in which
participants were solicited to invest money with the promise of a 100 percent rate of return in a
short period of time. Acosta-Andino offered and sold these investment contracts on behalf of
CIA. He also gave private promotional presentations. In August 2004, Acosta-Andino and
other defendants sent and caused to be sent via mail a security, that is, an investment contract,
for sale to an investor in Hartford, Connecticut, without the required registration statement and
without being registered as brokers and dealers.

The indictment also alleges forfeiture to the U.S. by the defendants, including Acosta-Andino,
of any property constituting or derived from proceeds obtained directly and indirectly as the
result of securities fraud and other violations, including but not limited to $13 million.

IRS Mail Clerk Indicted for Theft of More Than $75,000 in Taxpayer Checks
In May 2008, Shaun Lertswan was indicted in California on six counts of theft of government
property.

According to court documents, beginning in February 2008 through April 2008, Lertswan, a
mail clerk at the IRS Fresno Service Center, stole checks made payable to the IRS that totaled
$75,385.31. Lertswan changed or caused to be changed the checks by making them payable to
his own name and deposited them in his bank account.


   38                                                    TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
IRS Employee Sentenced for False Claims on Employee Time Reports
In June 2008, Charles Scoville was sentenced in Kentucky on one count of submitting false
claims. He was sentenced to six months in prison and three years of supervised release, and
was ordered to pay a $100 assessment and make restitution in the amount of $10,098.22.

According to court documents, Scoville, while acting as an IRS employee at the Prestonsburg,
Kentucky post of duty, submitted numerous false, fictitious, and fraudulent employee time
reports for hours worked. Scoville was paid for working a total of 233 hours over a span of 46
days in which he did not perform any employment-related duties. He filed false work reports
to conceal the fact that he was not performing his employment-related duties.

During the same time frame, Scoville used his government vehicle for personal use on a regular
basis, including, but not limited to: driving the vehicle on several trips to visit family in
Lawrenceburg, Kentucky; driving the vehicle for personal use on weekends and holidays; and
driving the vehicle to work at his second job as a sportscaster for a local radio station.

Dallas IRS Lockbox Employee Indicted for Theft and Embezzlement of More
Than $485,000 in Taxpayer Remittance Checks
In June 2008, Emmanuel Ekwuruke was indicted in Texas on one count of theft,
embezzlement, misapplication by a bank employee, and one count of theft of public money.

According to court documents, from February 2006 through May 2008, Ekwuruke, employed
at the Dallas lockbox, embezzled approximately $485,539.76 in taxpayer remittance checks.

IRS Chicago Employee Pleads Guilty to Embezzlement of More Than $12,000
in Payroll Compensation
In June 2008, Monique Steward pleaded guilty in Illinois to one count of embezzling public
funds.

According to court documents, beginning as early as February 2004 and continuing through
about August 2007, Steward embezzled money in the form of payroll compensation from the
IRS. Steward worked as a secretary in the Chicago office where she entered IRS employees’
timesheets into an automated system. She made various false entries in the system regarding
her time and attendance records and was paid for 805 hours that she had not worked for a total
loss to the government of $12,657.68.

IRS Agent Sentenced for Conspiring to Launder Drug Proceeds
In August 2008, Evelyn Millen was sentenced in Michigan to two counts of conspiracy to
launder monetary instruments. Millen was sentenced to 30 months imprisonment, 24 months
of supervised release upon release from imprisonment, and ordered to pay a $6,000 fine and a
$100 assessment.



       TIGTA Semiannual Report to Congress                                                    39
       April 1, 2008 – September 30, 2008
According to a DOJ press release, in June 2003, Millen, an IRS Agent, conspired with another
individual to purchase a $65,000 BMW 745i with drug trafficking proceeds. The BMW was
titled to Millen in order to conceal that the other individual was the true owner. Both
individuals conspired to pay off the balance on the BMW with five cashier’s checks that were
purchased from five different banks on July 6, 2005, and four money orders that were all
purchased on the same day, all totaling $40,000. The payment was structured in a manner to
avoid Federal bank reporting requirements for cash transactions over $10,000.

Unauthorized Accesses
The protection of confidential taxpayer information is of critical importance to America’s
taxpayers. Unauthorized access of tax information undermines the taxpaying public’s trust in
the Federal tax system to safeguard confidential tax information in its custody. To protect
sensitive taxpayer information from being jeopardized, TIGTA’s Strategic Enforcement
Division proactively identifies IRS employees who access and/or disclose private taxpayer
information. UNAX violations are usually the initial phase of IRS employee misconduct and
often lead to investigation of other criminal violations. IRS employees who are found to have
committed UNAX violations are subject to Federal prosecution, termination of employment, or
other disciplinary action. For the period April 1, 2008 through September 30, 2008, the IRS
issued more than 200 adverse and disciplinary actions against its employees for UNAX
violations.

The following are examples of significant investigations TIGTA conducted during the reporting
period that involved UNAX.

Two IRS Employees Sentenced for Unauthorized Inspection of Tax Return
Information
In August 2008, in two separate cases filed in California, Corina Yepez and Melissa Moisa
were each charged with one count of unauthorized inspection of tax return information and one
count of fraud and related activity in connection with computers. Yepez was sentenced to one
year of unsupervised probation, 150 hours of unpaid community service, and was ordered to
pay a $25 assessment. Moisa was sentenced to one year of unsupervised probation, 50 hours of
unpaid community service, and was ordered to pay a $500 fine and $25 assessment.

According to court documents, Yepez and Moisa, as IRS employees, unlawfully and without
authorization accessed and inspected the tax return information of private individuals and
intentionally exceeded their authorized access to a computer to do so.

Melody Woods Sentenced for Intentionally Accessing IRS Computer Without
Authorization
In June 2008, Melody Woods was sentenced in New York on one count of intentionally
accessing a computer without authorization and exceeding authorization to obtain information



   40                                                 TIGTA Semiannual Report to Congress
                                                         April 1, 2008 – September 30, 2008
from an agency of the U.S. She was sentenced to two years probation and was ordered to pay a
$25 assessment.

According to court documents, Woods intentionally and knowingly accessed a computer
system maintained by the U.S. Department of Treasury without authorization. Woods
exceeded her authorized access in order to access and obtain information from the Internal
Revenue Service concerning at least six individuals.

Assaults and Threats
IRS employees routinely interact with taxpayers in the performance of their official duties.
Sometimes these contacts can become volatile and a taxpayer might resort to violence, such as
making threats against or physically assaulting the employee. TIGTA’s highest priority
complaints are those involving threats and assaults. TIGTA works aggressively and takes swift
action to protect IRS employees. During this six-month reporting period, TIGTA investigated
211 threat and assault complaints.

The following is an example of a significant investigation TIGTA conducted during the
reporting period that involved a threat.

Donita Williams Sentenced for Threatening TIGTA Agent with Bodily Harm
In July 2008, Donita Williams was sentenced in Michigan on one count of obstruction of
justice by threat of force. She was sentenced to probation for one year and ordered to pay a $25
fine.

According to court documents, in March 2007, Williams had her return prepared by a volunteer
at a Volunteer Income Tax Assistance (VITA) site. In April 2007, an employee sent a letter to
Williams explaining that her return was rejected because someone else claimed her as a
dependent on their return.

Subsequently, Williams left a threatening voicemail message and, during a phone call to
Williams, a TIGTA special agent was threatened by Williams.

Contract Fraud
TIGTA is committed to conducting procurement investigations that ensure the highest degree
of integrity, economy, and efficiency in IRS contracts. This includes ensuring that improper
contract activities or illegal acts are effectively identified and pursued in a timely manner.
TIGTA special agents conduct independent reviews of contractor invoicing to ensure that the
IRS is complying with the contract terms and conditions. They also conduct reactive and
proactive investigations to detect and deter criminal activity by contractors. TIGTA’s contract



       TIGTA Semiannual Report to Congress                                                    41
       April 1, 2008 – September 30, 2008
investigations have produced significant results in the form of criminal indictments, civil
penalties, and debarments.

The following is an example of a significant investigation TIGTA conducted during the
reporting period that involved contract fraud.

Former GSA Employee Sentenced for Bribery in Scheme Involving Security for
IRS Locations
In July 2008, Dessie Ruth Nelson was sentenced in Maryland to one count of bribery and one
count of income tax evasion. Nelson was sentenced to 60 months in prison followed by three
years of supervised release, and was ordered to pay a $200 assessment, a $25 processing fee,
$38,780 in restitution to the IRS, and to forfeit $138,500.

According to court documents, Nelson, a long-time employee of the General Services
Administration (GSA), was responsible for contracting on GSA’s behalf with private
companies to assist in providing security to GSA-managed buildings. GSA’s Public Buildings
Service (PBS) was responsible for acquiring and managing real estate for other civilian
branches of the Federal Government. PBS in turn leased the space to Federal customer
agencies, including the IRS.

Former Montgomery County police officer Michael Holiday was the Chief Executive Officer
and sole shareholder of Holiday International Security (HIS). This company provided physical
security to Federal installations. Between 2000 and 2003, Holiday provided Nelson with cash,
vacations, and other benefits in exchange for her assistance in awarding multi-million dollar
contracts to HIS. Holiday arranged and paid more than $7,000 for Nelson’s passage on a
Caribbean cruise, gave Nelson a shopping bag containing approximately $35,000 in cash, and
an envelope containing $10,000 in cash.

Bribery
IRS employees have frequent contact with taxpayers, which make them potential targets for
bribes. Bribery is an act of corruptly giving, offering, or promising anything of value to a
public official to influence the person to commit or allow fraud against the U.S. TIGTA
educates IRS employees on how to recognize bribe overtures and their responsibility to report
bribery attempts to TIGTA. During this reporting period, TIGTA initiated 26 bribery
investigations.

The following are examples of significant investigations TIGTA conducted during the reporting
period that involved bribery.

Victor John Indicted for Bribery of IRS Auditor
In April 2008, Victor John was indicted in California on one count of bribery of a public
official.


   42                                                    TIGTA Semiannual Report to Congress
                                                            April 1, 2008 – September 30, 2008
According to court documents, between about March 24, 2008 and April 3, 2008, John
corruptly gave $4,900 to an auditor employed by the IRS to influence a pending assessment of
tax due and owed by John.

Edward Sobczewski Indicted for Bribery of Revenue Agent with Colorado
Rockies Tickets
In July 2008, Edward Sobczewski was indicted in Colorado on four counts of bribery of a
public official.

According to court documents, in April and May 2008, Sobczewski offered and promised
Colorado Rockies tickets to a Revenue Agent (RA) if the RA changed audit results of
Sobczewski’s 2006 personal income tax return. Later in May 2008, Sobczewski gave season
tickets for the Colorado Rockies in exchange for changed audit results of his 2006 personal
income tax return.

Former IRS Employee Pleads Guilty to Soliciting Bribe
In June 2008, former IRS employee Robert Rosner pleaded guilty in New York to bribery.

According to court documents, from August 2004 to December 2006, Rosner served as an
Internal Revenue Agent with the IRS and was responsible for conducting taxpayer audits.
From July 2006 through early December 2006, Rosner solicited a $5,000 cash payment in order
to close and not further pursue an audit of a taxpayer.

Rosner sent a letter to a small business in New York advising the company that the IRS had
selected its Federal tax returns for an audit. During meetings with the head of the company,
Rosner requested that the company head treat him to lunch, and during one meeting, he told the
company head that he would terminate the IRS audit of the company if the company head
would pay him $5,000. Rosner submitted internal paperwork at the IRS recommending that no
change be made to the company’s tax returns, which ended the IRS audit of the company.

Other External Investigations
TIGTA is statutorily mandated to investigate external attempts to corrupt tax administration,
which includes criminal misconduct by non-employees, such as impersonation, interference
with the administration of internal revenue laws, misuse of Treasury names, symbols, etc., and
tax practitioner fraud relating to the theft of remittances intended for the IRS and the theft of
taxpayer refunds. TIGTA is committed to protecting the IRS’s ability to collect revenue by
investigating individuals who interfere with tax administration. During this reporting period,
TIGTA received 2,253 complaints regarding improprieties by tax practitioners and other non-
employees.




       TIGTA Semiannual Report to Congress                                                      43
       April 1, 2008 – September 30, 2008
The following are examples of significant investigations TIGTA conducted during the reporting
period that involved non-employees.

Superseding Indictment Charges Conspiracy and Interfering With
Administration of Federal Internal Revenue Laws
A superseding indictment was issued in April 2008 in Ohio based on evidence developed
during a joint investigation by TIGTA and the IRS Criminal Investigation Division. The
indictment charges Winfield Thomas and Jeanne Herrington with conspiracy to defraud the
U.S. in violation of 18 U.S.C. § 371, and also charges Herrington with interference with the
administration of the internal revenue laws in violation of 26 U.S.C. § 7212(a).

According to the indictment, from about 1993 and continuing thereafter up to and including the
date of this indictment, Thomas, Herrington, and others willfully and knowingly conspired and
agreed to defraud the U.S. for the purpose of impeding, obstructing, and defeating the lawful
functions of the IRS in the computation, assessment, and collection of revenue. Thomas and
Herrington advanced their conspiracy by promoting and selling abusive trusts, preparing and
advocating the preparation of false Federal income tax returns, submitting and/or assisting in
the submission of false and fraudulent documentation to the IRS in an effort to eliminate tax
liabilities and harass IRS employees, and organizing/attending meetings to discuss methods of
tax evasion and evading the payment of tax liabilities with fictitious financial instruments.

The indictment also charges that Herrington prepared and submitted to the IRS fraudulent
Forms 1099, which falsely reported that IRS employees associated with the Federal criminal
investigation against her had failed to report personal income in excess of $2 million, in an
attempt to harass them.

Individual Indicted for Impersonating an IRS Employee and Preparing
Fraudulent Tax Returns
Morgan Taylor Mayfaire pleaded guilty in August 2008 in Florida to preparing a fraudulent tax
return.

According to court documents, Mayfaire prepared tax returns for taxpayer clients, and in return,
her clients paid tax return preparation fees to her in the amount of ten percent of the amount of
the refund claimed on their Federal tax returns. Mayfaire caused approximately $472,904 to be
fraudulently refunded by the IRS to her clients based on false deductions she included on the
clients’ tax returns. She did so by willfully aiding and assisting in the preparation of Forms
1040 and 1040X, U.S. Individual Income Tax Return and Amended U.S. Individual Income
Tax Return that included Schedule A, Itemized Deductions, with fictitious and/or inflated
deductions that Mayfaire knew the taxpayers were not entitled to claim.

In furtherance of the scheme, Mayfaire pretended to be an IRS employee by falsely
representing to taxpayers that, as an IRS employee, she had ways of increasing taxpayer
deductions on tax returns that no other person would know. She thereby induced taxpayers to


   44                                                   TIGTA Semiannual Report to Congress
                                                           April 1, 2008 – September 30, 2008
hire her to prepare their taxes, file false tax returns, collect improper tax refunds, and to pay her
fees totaling approximately $13,478.

Taxpayer Pleads Guilty to Theft of Public Money
In August 2008, Peter Kurhan Jr. pleaded guilty in Pennsylvania to six counts of theft of public
money.

According to court documents, Kurhan Jr. owed money to the IRS based on his failure to pay
Federal taxes. From about May 2003 through about July 2005, Kurhan Jr. sent more than
eighty payment checks to the IRS in amounts exceeding his tax debt. The checks were drawn
on closed, unfunded and non-existent bank accounts. Because the amounts on the checks
exceeded his tax debt, the IRS sent refund checks before the agency discovered that his checks
were fraudulent and unfunded. Kurhan Jr. cashed the IRS refund checks, knowing that he was
not entitled to do so. He knowingly stole U.S. Treasury checks in an aggregate sum of
$83,996.61.




       TIGTA Semiannual Report to Congress                                                         45
       April 1, 2008 – September 30, 2008
                         CONGRESSIONAL
                           TESTIMONY

During this reporting period, Inspector General J. Russell George testified before Congress on
three occasions.

The Growing Problem of the Threat Identity Theft Poses to the Administration of
                          our Nation’s Tax System

On April 10, 2008, Mr. George testified before the Senate Committee on Finance regarding
identity theft and the 2008 Filing Season. Mr. George noted that the IRS has placed only
limited emphasis on employment-related and tax fraud identity theft. Although the Internal
Revenue Code currently permits the referral of tax information to certain Federal law
enforcement agencies, the IRS does not appear to be fully utilizing this authority, he said. The
IRS Criminal Investigation Division investigates identity theft crimes only if they are
committed in conjunction with other criminal offenses having a large tax effect. As a result,
the IRS has mainly focused on combating identity theft through public outreach. In addition,
Mr. George noted that current processes have been inadequate in reducing burden for taxpayers
victimized by identity theft. The IRS still lacks the comprehensive data needed to determine
the impact identity theft is having on tax administration, he said.

Mr. George also noted that TIGTA is concerned about the proliferation of phishing scams that
attempt to trick taxpayers into providing sensitive tax information. Insider attacks by IRS
employees and contractors remain a concern, he said. Because of their familiarity with the IRS
network, they can potentially do more harm than outsiders. Whether the attacks come from
outside intruders or inside the IRS, the target is personal and financial information. However,
he said, while the IRS relies on its Questionable Refund Program (QRP) to identify fraudulent
refund claims and prevent them from being paid, TIGTA is concerned that the QRP is
becoming increasingly unmanageable due to the growing number of fraudulent claims and the
IRS’s lack of resources to combat the fraud.

Mr. George said that overall, the 2008 Filing Season appeared to be progressing without major
problems. The IRS had taken positive actions to prepare for the issuing of over $100 billion in
stimulus payments beginning in May. In addition, the IRS improved the quality of customer


       TIGTA Semiannual Report to Congress                                                    47
       April 1, 2008 – September 30, 2008
service by creating a strategic plan to focus on service improvement and performance
measures.

             Internal Revenue Service Fiscal Year 2009 Budget Request

On April 16, 2008, Mr. George testified before the Senate Appropriations Committee’s
Subcommittee on Financial Services and General Government on the IRS’s Fiscal Year 2009
budget request.

Mr. George said that the IRS’s request of approximately $11.4 billion includes funding for
programs that pose long and short-term challenges for the Service, including enhancing
enforcement of the tax laws and business systems modernization efforts, and improving
taxpayer service, all while attempting to ensure their security.

Mr. George noted that the IRS’s budget request for systems modernization is $40 million less
than the Fiscal Year 2008 enacted amount. The IRS did not specify which programs will
absorb the cuts, although it stated that the requested amount will allow continued progress on
key modernization projects, including the Customer Account Data Engine, Accounts
Management Services and Modernized e-File, he said. Furthermore, TIGTA continues to be
concerned that the IRS is developing its modernized systems and bringing them online without
adequately contemplating the security implications.

                          The Economic Stimulus Act of 2008

On June 19, 2008, Mr. George testified before the House Committee on Ways and Means,
Subcommittee on Oversight and Social Security regarding TIGTA’s audit and investigative
actions pertaining to the Economic Stimulus Act of 2008, which was signed on February 13,
2008, and enacted to energize the national economy.

Mr. George said that the IRS issued approximately 76.5 million stimulus payment as of June
13, 2008, totaling approximately $63.9 billion, and that the IRS plans to issue stimulus
payments through December 2008 for those tax returns filed by October 15th. TIGTA
determined that the IRS is correctly calculating the stimulus payment for approximately 99.6
percent of the returns, he said. However, TIGTA identified approximately 385,000 stimulus
payments in which our calculation of the payment does not agree with the IRS’s payment
calculation.

Mr. George also said that TIGTA has initiated 12 complaints involving economic stimulus
payments. One case involves an alleged return preparer scheme, two cases involved allegations
of false impersonators requesting bank information, and nine cases involve phishing e-mails.
TIGTA will continue to closely monitor the issuance of the economic stimulus payments and to
promptly alert the IRS of any problems or emerging issues, he said.




   48                                                  TIGTA Semiannual Report to Congress
                                                          April 1, 2008 – September 30, 2008
                   AWARDS AND SPECIAL
                     ACHIEVEMENTS

                       Executive Development Program Graduates




On August 8, 2008, a graduation ceremony was held for the participants in the Summer 2008
Executive Development (XD) Program. The XD Program is the formal training phase of the
Senior Executive Service Candidate Development Program. TIGTA participated in this
program as a partner with the IRS. Its purpose is to identify outstanding employees with
demonstrated leadership competencies, to help participants better understand the strategic
vision of the Department of the Treasury as it relates to their future role as an executive, and to
prepare them for senior executive positions. Damon Plummer (middle row, far right) and
Kenneth Casey (third row, third from right) graduated and are two of the six TIGTA managers
who participated in the program. Four TIGTA managers attended the Winter 2008 XD
Program that ended in March 2008.




       TIGTA Semiannual Report to Congress                                                       49
       April 1, 2008 – September 30, 2008
                  TIGTA Recognized by the President’s Council on
                            Integrity and Efficiency

The President’s Council on Integrity and Efficiency 2008 Awards Committee presented an
Award of Excellence to a team within TIGTA’s Office of Audit.

The Identity Theft Audit Team was recognized for its outstanding achievement in identifying
and reporting employment-related and tax fraud identity theft issues. The audit team members
included Marybeth Schumann, Director, Compliance; Bryce Kisler, Acting Director; Alan
Lund, Acting Audit Manager; Julia Tai, Lead Auditor; and Jean Kao, Auditor.

                    TIGTA Recognized by United States Attorney




On April 10, 2008, Chuck Rosenberg, U.S. Attorney for the Eastern District of Virginia (far
right), presented TIGTA Special Agent Charles Venini (far left), TIGTA Forensic Data Analyst
James Avery Jr. (second from left), and TIGTA Special Agent Brendan Soden (second from
right) with an award for their outstanding work on an investigation involving unauthorized
access and disclosure of tax records by an IRS employee. The case was prosecuted by
Assistant U.S. Attorney Sally Chase (middle).




   50                                                 TIGTA Semiannual Report to Congress
                                                         April 1, 2008 – September 30, 2008
               AUDIT STATISTICAL REPORTS
                                 Reports with Questioned Costs

TIGTA issued four audit reports with questioned costs during this semiannual reporting
period1. The phrase “questioned cost” means a cost that is questioned because of:

       •    An alleged violation of a provision of a law, regulation, contract, or other requirement
            governing the expenditure of funds;
       •    A finding at the time of the audit that such cost is not supported by adequate documentation
            (an unsupported cost)l; or
       •    A finding that expenditure of funds for the intended purpose is unnecessary or
            unreasonable.

The phrase “disallowed cost” means a questioned cost that management, in a management
decision, has sustained or agreed should not be charged to the Federal Government.

                                             Reports With Questioned Costs
                                                                                             Unsupported
                                                                         Questioned Costs
                   Report Category                             Number                            Costs
                                                                          (in thousands)
                                                                                            (in thousands)
1. Reports with no management decision at
the beginning of the reporting period                               10        $165,728             $82,853
2. Reports issued during the reporting period                       2              $72                $44
3. Subtotals (Item 1 plus Item 2) 2                                 12        $165,800             $82,897
4. Reports for which a management decision
was made during the reporting period
   a. Value of disallowed costs                                     3             $767               $728
   b. Value of costs not disallowed                                 1              $22                $22
5. Reports with no management decision at
the end of the reporting period (Item 3 minus
Item 4)                                                             8         $165,011             $82,147
6. Reports with no management decision
   within 6 months of issuance                                      7         $165,000             $82,147

1
    See Appendix II for identification of audit reports involved.
2
    Difference due to rounding




            TIGTA Semiannual Report to Congress                                                          51
            April 1, 2008 – September 30, 2008
                             Reports with Recommendations that
                                Funds Be Put to Better Use
TIGTA issued three reports with recommendations that funds be put to better use during this
semiannual reporting period.1 The phrase “recommendation that funds be put to better use” means a
recommendation that funds could be used more efficiently if management took actions to
implement and complete the recommendation, including:
        •    Reductions in outlays;
        •    De-obligation of funds from programs or operations;
        •    Costs not incurred by implementing recommended improvements related to operations;
        •    Avoidance of unnecessary expenditures noted in pre-award reviews of contract agreements;
        •    Preventing erroneous payment of the following refundable credits: Earned Income Tax
             Credit and Child Tax Credit; and
        •    Any other savings that are specifically identified.
The phrase “management decision” means the evaluation by management of the findings and
recommendations included in an audit report, and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.

                      Reports With Recommendations That Funds Be Put To Better Use
                                                                                                  Amount
                                        Report Category                            Number
                                                                                              (in thousands)
1. Reports with no management decision at the beginning of the reporting
period                                                                                0                $0
2. Reports issued during the reporting period                                         3          $350,203
3. Subtotals (Item 1 plus Item 2)                                                     3          $350,203
4. Reports for which a management decision was made during the reporting
period
    a. Value of recommendations to which management agreed
          i. Based on proposed management action                                      1               $36
         ii. Based on proposed legislative action                                     0                $0
    b. Value of recommendations to which management did not agree 2                   2          $350,166
5. Reports with no management decision at end of the
   reporting period (Item 3 minus Item 4)                                             0                $0
6. Reports with no management decision within 6 months of issuance                    0                $0

1
    See Appendix II for identification of audit reports involved.
2
    Difference due to rounding



        52                                                          TIGTA Semiannual Report to Congress
                                                                       April 1, 2008 – September 30, 2008
                   Reports with Additional Quantifiable Impact
                          on Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has identified
measures that demonstrate the value of audit recommendations to tax administration and business
operations. These issues are of interest to IRS and Treasury Department executives, Congress, and
the taxpaying public, and are expressed in quantifiable terms to provide further insight into the
value and potential impact of the Office of Audit’s products and services. Including this
information also promotes adherence to the intent and spirit of the Government Performance and
Results Act (GPRA).

Definitions of these additional measures are:
Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations that prevent
erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need for,
frequency of, or time spent on contacts, record keeping, preparation, or costs to comply with tax
laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) granted to
taxpayers by law, regulation, or IRS policies and procedures. These rights most commonly arise
when filing tax returns, paying delinquent taxes, and examining the accuracy of tax liabilities. The
acceptance of claims for and issuance of refunds (entitlements) are also included in this category,
such as when taxpayers legitimately assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account information
(privacy). Processes and programs that provide protection of tax administration, account
information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to reduce cost
while maintaining or improving the effectiveness of specific programs; resources saved would be
available for other IRS programs. Also, the value of internal control weaknesses that resulted in an
unrecoverable expenditure of funds with no tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance, and
integrity of data, including the sources of data and the applications and processing thereof, used
by the organization to plan, monitor, and report on its financial and operational activities. This
measure will often be expressed as an absolute value (i.e., without regard to whether a number is
positive or negative) of overstatements or understatements of amounts recorded on the
organization’s documents or systems.
Protection of Resources: Safeguarding human and capital assets, used by or in the custody of the
organization, from inadvertent or malicious injury, theft, destruction, loss, misuse, overpayment, or
degradation.



        TIGTA Semiannual Report to Congress                                                      53
        April 1, 2008 – September 30, 2008
The number of taxpayer accounts and dollar values shown in the following chart was derived from
analyses of historical data, and is thus considered a potential barometer of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions and the number of accounts or subsequent
business activities impacted from the dates of implementation. Also, a report may have issues that
impact more than one outcome measure category.

                     Reports With Additional Quantifiable Impact On Tax Administration
                                                               Number of        Number of          Dollar Value
                 Outcome Measure Category
                                                                Reports1     Taxpayer Accounts    (in thousands)

            Increased Revenue                                        4            131,051             $46,589

            Revenue Protection                                       4            218,038           $1,359,284

            Reduction of Burden on Taxpayers                         4           1,027,203                   0
            Taxpayer Rights and Entitlements at
            Risk                                                     9           2,993,822           $450,838

            Taxpayer Privacy and Security                            2                545                    0

            Inefficient Use of Resources                             2                  0              $15,572
            Reliability of Management
            Information                                              9             99,061             $213,515

            Protection of Resources                                  0                  0                    0
 1
     See Appendix II for identification of audit reports involved.

 Management did not agree with the outcome measures in the following reports:
       •    Increased Revenue: Reference Numbers 2008-40-113, 2008-30-147, 2008-40-167, and
            2008-40-180.
       •    Revenue Protection: Reference Numbers 2008-10-088, 2008-10-172, and 2008-40-183.
       •    Taxpayer Burden: Reference Number 2008-10-088.
       •    Taxpayer Rights and Entitlements: Reference Numbers 2008-10-088, 2008-40-113, 2008­
            40-124, 2008-40-127, 2008-40-180, and 2008-40-183.
       •    Taxpayer Privacy and Security: Reference Numbers 2008-10-088 and 2008-30-147.
       •    Inefficient Use of Resources: Reference Number 2008-20-161.
       •    Reliability of Management Information: Reference Numbers 2008-10-088 and 2008-40­
            112.
 The following reports contained quantifiable impacts in addition to the number of taxpayer
 accounts and dollar value:
   • Taxpayer Rights and Entitlements: Reference Number 2008-30-164.
   • Reliability of Management Information: Reference Number 2008-10-162.


       54                                                                  TIGTA Semiannual Report to Congress
                                                                              April 1, 2008 – September 30, 2008
                            INVESTIGATIONS
                          STATISTICAL REPORTS

                                      Significant Investigative Achievements
                                          April 1, 2008 – September 30, 2008

Complaints/Allegations Received by TIGTA
       Complaints against IRS Employees                                                                     2,262
       Complaints against Non-Employees                                                                     2,253

     Total Complaints/Allegations                                                                          4,515

Status of Complaints/Allegations Received by TIGTA
       Investigations Initiated                                                                             1,601
       In Process within TIGTA1                                                                              291
       Referred to IRS for Action                                                                            379
       Referred to IRS for Information Only                                                                  757
                                      2
       Referred to a Non-IRS Entity                                                                                6
       Closed with No Referral                                                                              1,129
       Closed with All Actions Completed                                                                     352
     Total Complaints                                                                                      4,515

Investigations Opened and Closed
       Total Investigations Opened                                                                          1,826
       Total Investigations Closed                                                                          1,895

Financial Accomplishments
       Embezzlement/Theft Funds Recovered                                                             $18,559,077
       Court Ordered Fines, Penalties and Restitution                                                  $2,839,314
       Out-of-Court Settlements                                                                                    0

     Total Financial Accomplishments                                                                 $21,398,391
1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: The IRS made 76 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore were
returned to the IRS. These are not included in the total complaints shown above.




            TIGTA Semiannual Report to Congress                                                                        55
            April 1, 2008 – September 30, 2008
                                       Status of Closed Criminal Investigations
                                                                                             Non-
                                                                       Employee                                      Total
         Criminal Referrals1                                                                Employee
            Referred – Accepted for Prosecution                           31                      84                115
            Referred – Declined for Prosecution                           381                   341                 722
            Referred – Pending Prosecutorial Decision                     11                      54                 65

         Total Criminal Referrals                                         425                   479                 904

         No Referral                                                      479                   536               1,015
1
    Criminal referrals include both Federal and State dispositions.


                                                  Criminal Dispositions2
                                                                      Employee        Non-Employee                Total
Guilty                                                                    19                    38                   57
Nolo Contendere (no contest)                                               0                     3                     3
Pre-trial Diversion                                                        0                     8                     8
                        3
Deferred Prosecution                                                       0                     2                     2
Not Guilty                                                                 0                     1                     1
             4
Dismissed                                                                  2                     8                   10

Total Criminal Dispositions                                               21                    60                   81
2
  Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior
reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
Investigations table above.
3
  Generally in a deferred prosecution the defendant accepts responsibility for his/her actions and complies with certain
conditions imposed by the court. Upon the defendant’s completion of the conditions, the court dismisses the case. If the
defendant fails to fully comply, the court reinstates prosecution of the charge.
4
  Court dismissed charges.


                    Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                  Total
Removed, Terminated or Other                                                                                        357
Suspended/Reduction in Grade                                                                                        101
Oral or Written Reprimand/Admonishment                                                                              119
Closed – No Action Taken                                                                                             96
Clearance Letter Issued                                                                                              78
Employee Resigned Prior to Adjudication                                                                             166
Non-Internal Revenue Service Employee Actions6                                                                      340

Total Administrative Dispositions                                                                                 1,257
5
  Final administrative dispositions during the reporting period. This data may pertain to investigations referred
administratively in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations
Opened and Closed table.
6
  Administrative actions taken by the IRS against non-IRS employees.




    56                                                                         TIGTA Semiannual Report to Congress
                                                                                  April 1, 2008 – September 30, 2008
                                 APPENDIX I
                            STATISTICAL REPORTS
                                  - OTHER
                            Audit Reports with Significant
                           Unimplemented Corrective Actions
The Inspector General Act of 1978 requires identification of significant recommendations described in previous
semiannual reports for which corrective actions have not been completed. The following list is based on
information from the IRS Office of Management Control’s automated tracking system maintained by Treasury
Department management officials.

                      IRS
                   Management                           Projected      Report Title and Recommendation Summary
 Reference          Challenge                          Completion      (F = Finding No., R = Recommendation No.,
  Number              Area                Issued          Date                         P = Plan No.)
  2001-30-052        Tax Compliance       March 2001                Program Improvements Are Needed to Encourage Taxpayer
                        Initiatives                                 Compliance in Reporting Foreign Sourced Income

                                                         12/15/10   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives on
                                                                    foreign sourced income.
  2003-10-094         Erroneous and       March 2003                Improvements Are Needed in the Monitoring of Criminal Investigation
                    Improper Payments                               Controls Placed on Taxpayers’ Accounts When Refund Fraud is
                                                                    Suspected

                                                         10/15/08   F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund
                                                                    Program are conducted to assess compliance with procedures and that
                                                                    feedback is provided regarding program effectiveness. Also, analyses of
                                                                    the Fraud Detection Centers’ (FDC) control listing data should be analyzed
                                                                    to ensure reviews are done and accounts are resolved.

  2003-40-139        Tax Compliance       June 2003                 Opportunities Exist to Improve the Administration of the Earned Income
                        Initiatives                                 Tax Credit

                                                         10/15/08   F-1, R-2, P-1. Establish a consistent method to measure progress toward
                                                                    the Earned Income Tax Credit (EITC) Program’s long-term goals.

  2003-30-176        Tax Compliance         August                  Interest Paid to Large Corporations Could Significantly Increase Under
                        Initiatives          2003                   a Proposed New Revenue Procedure

                                                         01/15/09   F-1, R-2, P-1. Gather pertinent information concerning the affected
                                                                    proposed procedure to reduce the length of examinations and interest costs
                                                                    by conducting a pilot program to demonstrate the actual benefits that could
                                                                    be achieved.

  2004-20-001          Systems             October                  Risks Are Mounting As the Integrated Financial System Project Team
                   Modernization of the     2003                    Strives to Meet An Aggressive Implementation Date
                          IRS
                                                         12/31/10   F-2, R-1, P-1. Ensure the disaster recovery environment is completely
                                                                    built-out and tested.




                TIGTA Semiannual Report to Congress                                                                               57
                April 1, 2008 – September 30, 2008
                 IRS
              Management                          Projected      Report Title and Recommendation Summary
Reference      Challenge                         Completion      (F = Finding No., R = Recommendation No.,
 Number          Area               Issued          Date                         P = Plan No.)
2004-30-068    Tax Compliance       March 2004                Additional Efforts Are Needed to Improve the Bank Secrecy Act
                  Initiatives                                 Compliance Program

                                                   06/15/09   F-2, R-1, P-1. Develop standard risk-based case selection criteria that
                                                              would provide minimum requirements and parameters for case selection.

2004-40-098     Erroneous and       May 2004                  Better Use of the National Account Profile During Returns Processing
              Improper Payments                               Can Eliminate Erroneous Payments

                                                   12/15/08   F-2, R-1, P-1. Conduct studies on the accuracy of EITC claims on tax
                                                              returns for individuals who have been claimed for EITC purposes who are
                                                              20 or more years older than the primary taxpayer, or are listed as children
                                                              who are up to 19 years older than the primary taxpayer.

2004-20-131   Security of the IRS   September                 The Use of Audit Trails to Monitor Key Networks and Systems Should
                                      2004                    Remain Part of the Computer Security Material Weakness

                                                   04/30/12   F-2, R-4, P-1. Develop and implement a reasonable approach for
                                                              reviewing audit trails over major applications.

2005-40-026   Providing Quality      February                 Processes Used to Ensure the Accuracy of Information for Individual
              Taxpayer Service         2005                   Taxpayers on IRS.GOV Need Improvement
                 Operations
                                                   12/31/10   F-1, R-1, P-4. Develop a process to ensure that only authorized personnel
                                                              have access to IRS.gov content.
                                                   12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’s content management software
                                                              application to provide the ability to identify specific content accessed or
                                                              revised by individual users.

2005-20-024   Security of the IRS   March 2005                The Disaster Recovery Program Has Improved, But It Should Be
                                                              Reported as a Material Weakness Due to Limited Resources and Control
                                                              Weaknesses

                                                   12/31/10   F-1, R-1, P-1, P-5. Report a disaster recovery program material weakness
                                                              to the Department of the Treasury as part of the IRS’s Federal Managers’
                                                              Financial Integrity Act of 1982 annual evaluation of controls and include
                                                              any new or currently underway activities in the corrective action plan.

2005-10-107    Human Capital         July 2005                Improved Policies and Guidance Are Needed for the Telework Program

                                                              F-1, R-1, P-1. Ensure an IRS-wide Flexiplace Program policy is
                                                   10/15/08   developed and implemented that addresses all the elements recommended
                                                              by the Office of Personnel Management.
                                                              F-2, R-1, P-1. Implement guidelines to assist managers in evaluating
                                                   10/15/08   employees’ abilities to participate in the Flexiplace Program without a loss
                                                              in productivity.
                                                              F-2, R-2, P-1. Ensure Flexiplace Program training is provided as needed
                                                   10/15/08   to help address productivity concerns.
                                                              F-2, R-3, P-1. Assess the logistical support and equipment needs of
                                                   10/15/08   Flexiplace Program participants to help ensure there is no loss in
                                                              productivity.




    58                                                          TIGTA Semiannual Report to Congress
                                                                  April 1, 2008 – September 30, 2008
                     IRS
                  Management                          Projected      Report Title and Recommendation Summary
Reference          Challenge                         Completion      (F = Finding No., R = Recommendation No.,
 Number              Area                Issued         Date                         P = Plan No.)
2005-40-110        Providing Quality     July 2005                The Effectiveness of the Taxpayer Assistance Center Program Cannot
                   Taxpayer Service                               Be Measured
                      Operations
                                                       10/15/08   F-1, R-1, P-1. Enhance the management information system to capture the
                                                                  number of taxpayers served, the numbers and types of services provided,
                                                                  and the related resources.
                                                       09/15/09   F-1, R-3, P-1. Develop a process that includes routine assessments of
                                                                  Taxpayer Assistance Center (TAC) operations to ensure the TACs are
                                                                  optimally located and the services provided at the TACs are the most
                                                                  effective and cost efficient.

2005-10-129        Providing Quality     September                Progress Has Been Made, but Further Improvements Are Needed in the
                   Taxpayer Service        2005                   Administration of the Low Income Taxpayer Clinic Grant Program
                      Operations
                                                       05/31/10   F-1, R-1, P-2. Establish goals and performance measures for the LITC
                                                                  program to assist the Congress and IRS in evaluating the success of the
                                                                  program.

2005-10-149         Human Capital        September                The Internal Revenue Service Does Not Adequately Assess the
                                           2005                   Effectiveness of Its Training

                                                       12/31/09   F-2, R-1, P-2. Ensure all IRS components follow established procedures
                                                                  to evaluate training in order for the IRS to comply with the training
                                                                  assessment requirement of the Federal Workforce Flexibility Act of 2004.

2005-30-154        Processing Returns    September                The Clarity of Math Error Notices Has Been Improved, but Further
                 and Implementing Tax      2005                   Changes Could Enhance Notice Clarity and Reduce Unnecessary
                  Law Changes During                              Notices
                 the Tax Filing Season
                                                       04/15/10   F-1, R-2, P-1. Revise tax statement tables contained on notices to include
                                                                  specific amounts from at least some line items on which taxpayers made
                                                                  errors on their tax returns.

2006-40-007         Erroneous and        November                 Efforts to Prevent Improper Tax Benefits Resulting From Multiple Uses
                  Improper Payments        2005                   of Taxpayer Identification Numbers Can Be Improved

                                                       12/15/08   F-1, R-1, P-2. Lead a collaborative effort to identify a workable solution to
                                                                  resolve multiple identification number use cases where an identification
                                                                  number is used as a primary identification number on one return and a
                                                                  secondary identification number on another return.

2006-30-132            Tax Gap           September                Additional Enhancements Could Improve Tax Compliance of
                                           2006                   Employees Who Receive Tips

                                                       02/15/09   F-3, R-2, P-1. Ensure the Service Wide Employment Tax Research
                                                                  System program remains funded through completion and include the
                                                                  Gaming tip agreements in the Tip Agreement database.
                                                       02/15/09   F-4, R-1, P-1. Ensure the results of initial testing of the Attributed Tip
                                                                  Income Program Revenue Procedure are analyzed and consider
                                                                  developing similar Revenue Procedures for small businesses in other
                                                                  industries to increase the chance of improving the tip income reporting
                                                                  compliance.




              TIGTA Semiannual Report to Congress                                                                                 59
              April 1, 2008 – September 30, 2008
                 IRS
              Management                          Projected      Report Title and Recommendation Summary
Reference      Challenge                         Completion      (F = Finding No., R = Recommendation No.,
 Number          Area               Issued          Date                         P = Plan No.)
2006-20-166   Security of the IRS   September                 The Monitoring of Privacy Over Taxpayer Data Is Improving, Although
                                      2006                    Enhancements Can Be Made to Ensure Compliance With Privacy
                                                              Requirements

                                                   10/15/08   F-2, R-1, P-2, P-3, P-4. Initiate a program providing for the routine
                                                              evaluation of employee training activities relative to current privacy policy
                                                              requirements and develop a system for the tracking and monitoring of
                                                              these activities.

2006-20-177   Security of the IRS   September                 Improvements Are Needed to Ensure the Use of Modernization
                                      2006                    Applications Is Effectively Audited

                                                   10/15/08   F-2, R-2, P-1. Modify modernized system audit trails to comply with
                                                              SAAS standards, ensuring data collected are valid and arranged in the
                                                              proper format.

2006-20-178   Security of the IRS   September                 Complete Certification and Accreditation Is Needed to Ensure the
                                      2006                    Electronic Fraud Detection System Meets Federal Government Security
                                                              Standards

                                                   10/01/08   F-3, R-1, P-1. Develop a Business Impact Analysis for the Enterprise
                                                              Computing Center – Memphis that places the Electronic Fraud Detection
                                                              System at an appropriate priority among the other major applications
                                                              residing at the Enterprise Computing Center – Memphis.

2007-40-026   Providing Quality      January                  Improvements to the E-Help Desk Are Needed to Support Expanding
              Taxpayer Service        2007                    Electronic Products and Services
                 Operations
                                                   04/15/09   F-1, R-4, P-2, P-3. Develop processes and procedures to ensure
                                                              management information is complete and accurate.

2007-30-049    Tax Compliance       March 2007                The Internal Revenue Service Needs to Improve Procedures to Identify
                  Initiatives                                 Noncompliance With the Reporting Requirements for Noncash
                                                              Charitable Contributions

                                                   01/15/09   F-2, R-1, P-3. Develop procedures to address returns without required
                                                              substantiation for noncash charitable contributions.

2007-40-057   Providing Quality     March 2007                Steps Can Be Taken to Reduce the Challenges Taxpayers With Vision
              Taxpayer Service                                Impairments Face When Attempting to Meet Their Tax Obligations
                 Operations
                                                   05/15/09   F-2, R-2, P-1. Using the results of the study, develop a long-term strategy
                                                              to assist taxpayers with vision impairments, including seniors.
                                                   01/15/10   F-3, R-1, P-1. Provide additional viewing options on IRS.gov, such as
                                                              scalable fonts, enlarged text size, or background colors to make it more
                                                              accessible to taxpayers with vision impairments.

2007-10-061     Tax Exempt          March 2007                Tax-Exempt Hospital Industry Compliance With Community Benefit
                Organizations                                 and Compensation Practices Is Being Studied, but Further Analyses Are
                                                              Needed to Address Any Noncompliance

                                                   11/30/08   F-1, R-1, P-1. Ensure the interim report includes an assessment of how
                                                              tax-exempt hospitals are providing a community benefit, as well as any
                                                              planned actions that is determined necessary to address the community
                                                              benefit standard.




    60                                                          TIGTA Semiannual Report to Congress
                                                                  April 1, 2008 – September 30, 2008
                    IRS
                 Management                           Projected      Report Title and Recommendation Summary
Reference         Challenge                          Completion      (F = Finding No., R = Recommendation No.,
 Number             Area                Issued          Date                         P = Plan No.)
2007-30-062        Tax Compliance       March 2007                Social Security and Medicare Taxes Are Not Being Properly Assessed on
                      Initiatives                                 Some Tips and Certain Types of Wage Income

                                                       01/15/09   F-1, R-1, P-5. Use Form 4137 exclusively for calculating Social Security
                                                                  and Medicare taxes on tip income. Revise the form to capture the data
                                                                  necessary to assess the employer’s share of Social Security and Medicare
                                                                  taxes on unreported tip income.
                                                       01/15/09   F-1, R-2, P-1, P-2. Develop a compliance program to ensure the revised
                                                                  Form 4137 is used effectively to identify and assess the employer’s share
                                                                  of Social Security and Medicare taxes on unreported tip income.
                                                       01/15/09   F-3, R-2, P-1, P-2. Develop a compliance program to help ensure only
                                                                  qualifying individuals use the new form and the appropriate amounts of
                                                                  Social Security and Medicare taxes are assessed for self-employed
                                                                  taxpayers or employers that are misclassifying their employees.

2007-10-076         Erroneous and       May 2007                  Actions Have Been Taken to Address Deficiencies in the Questionable
                  Improper Payments                               Refund Program; However, Many Concerns Remain, With Millions of
                                                                  Dollars at Risk

                                                       01/31/09   F-2, R-2, P-1. Initiate a legislative proposal to exempt the IRS from
                                                                  issuing a deficiency notice for disallowance of EITC and other refundable
                                                                  credits when the deficiency and credits are the result of fraudulent returns,
                                                                  if its current efforts through a regulatory change are not successful.
                                                       12/15/08   F-4, R-1, P-1. Reemphasize the requirement to maintain documentation
                                                                  and/or notations to describe how the FDCs determined fraud.


2007-10-082         Tax Exempt          May 2007                  Screening Tax-Exempt Organizations Filing Information Provides
                    Organizations                                 Minimal Assurance That Potential Terrorist-Related Activities Are
                                                                  Identified

                                                       01/31/09   F-1, R-1, P-1. Develop and implement a long-term strategy to automate
                                                                  the matching of Forms 1023 and 990 information against a consolidated
                                                                  terrorist watch list to initially identify potential terrorist activities related to
                                                                  tax-exempt organizations.
                                                       01/15/09   F-1, R-2, P-1. Evaluate whether more comprehensive terrorist watch lists
                                                                  should be used in conjunction with the Department of the Treasury’s
                                                                  Office of Foreign Assets Control list during the screening of tax-exempt
                                                                  filing data to improve the identification of organizations and/or individuals
                                                                  potentially involved in terrorist-related activities.
2007-20-107       Security of the IRS    July 2007                Employees Continue to Be Susceptible to Social Engineering Attempts
                                                                  That Could Be Used by Hackers

                                                       10/15/08   F-1, R-2, P-1. Conduct internal social engineering tests on a periodic basis
                                                                  to increase employees’ security awareness and the need to protect
                                                                  usernames and passwords.
2007-20-123          Systems             July 2007                While Improvements Continue in Contract Negotiation Methods and
                 Modernization of the                             Management Practices, Inconsistencies Need to Be Addressed
                        IRS
                                                       03/01/09   F-2, R-1, P-1. Collect and review lessons learned from the use of
                                                                  independent estimates to determine whether independent estimates can
                                                                  become a consistently more useful negotiations tool.

2007-20-121          Systems              August                  Annual Assessment of the Business Systems Modernization Program
                 Modernization of the      2007
                        IRS                            12/31/10   F-1, R-1, P-1. Continue to address Modernization program corrective
                                                                  actions from TIGTA and Government Accountability Office reports
                                                                  through the Highest Priority Initiatives process.




              TIGTA Semiannual Report to Congress                                                                                      61
              April 1, 2008 – September 30, 2008
                 IRS
              Management                        Projected      Report Title and Recommendation Summary
Reference      Challenge                       Completion      (F = Finding No., R = Recommendation No.,
 Number          Area               Issued        Date                         P = Plan No.)
2007-40-164   Providing Quality      August                 The Internal Revenue Service Provides Helpful Tax Law Assistance, But
              Taxpayer Service        2007                  Still Has Problems With Tax Return Preparation Assistance
                 Operations
                                                 10/15/08   F-2, R-2, P-1. Consider revising the appointment procedures to alleviate
                                                            taxpayer burden, i.e., having to return to the TACs multiple times to
                                                            schedule appointments.

2008-30-001    Tax Compliance       October                 Identification of Unreported Self-Employment Taxes Can Be Improved
                  Initiatives        2007
                                                 01/15/08   F-2, R-1, P-1. Strengthen the processes for reviewing returns upon initial
                                                            receipt for potential unpaid self-employment taxes.

2008-30-027    Tax Compliance       December                Tax Examiners Did Not Always Resolve Refund Delinquency Cases,
                  Initiatives         2007                  And Computer Checks Did Not Identify Unfiled Returns

                                                 01/15/09   F-2, R-1, P-1. Modify the Refund Delinquency case creation criteria to
                                                            ensure delinquency inquiries are made of related tax period Forms 941 and
                                                            Form 940.

2008-20-029   Security of the IRS   December                Internal Revenue Service Databases Continue to Be Susceptible to
                                      2007                  Penetration Attacks

                                                 10/01/08   F-1, R-3, P-1. Expand the criteria used for scanning IRS databases for the
                                                            presence of administrator accounts with default or blank passwords.
                                                 12/01/08   F-1, R-4, P-1. Ensure the employees responsible for correcting default and
                                                            blank passwords directly review the Computer Security Incident Response
                                                 12/01/08   Center scan results.
                                                            F-2, R-1, P-1. Establish a process for monitoring database patch
                                                            installations and updates to current versions of database software.
2008-20-030   Security of the IRS   December                Lack of Proper IRS Oversight of the Department of the Treasury HSPD-
                                      2007                  12 Initiative Resulted in Misuse of Federal Government Resources

                                                            F-1, R-4, P-1. Coordinate with the Treasury to evaluate the possibility of
                                                 01/01/09   combining its Public Key Infrastructure efforts with those of the General
                                                            Service Administration.
                                                 10/01/08   F-2, R-1, P-1. Ensure executive steering committees responsible for
                                                            providing oversight to information technology projects take an active role
                                                            to address these challenges and, specifically, to enforce use of the IRS
                                                            Enterprise Life Cycle requirements.

2008-40-062   Providing Quality     February                The Processing of Carryback Loss Claims Needs to Be Improved to
              Taxpayer Service        2008                  Ensure Taxpayers Receive Accurate Refunds
                 Operations
                                                 12/15/08   F-1, R-1, P-2. Revise the applicable tax form instructions for claiming
                                                            carryback losses to ease the burden on taxpayers and reduce the number of
                                                            errors on claims.




    62                                                        TIGTA Semiannual Report to Congress
                                                                April 1, 2008 – September 30, 2008
                     IRS
                  Management                           Projected      Report Title and Recommendation Summary
Reference          Challenge                          Completion      (F = Finding No., R = Recommendation No.,
 Number              Area                Issued          Date                         P = Plan No.)
2008-30-056         Human Capital        March 2008                A More Strategic Approach Could Enhance the Workers’ Compensation
                                                                   Program Return-To-Work-Efforts

                                                        10/15/08   F-1, R-1, P-1. Develop and implement control processes for reviewing the
                                                                   accuracy of the costs in Office of Workers’ Compensation Program’s
                                                        02/15/09   chargeback reports.
                                                                   F-2, R-1, P-1. Implement a control to provide greater assurances that
                                                                   required procedures are completed in the claim process by managers and
                                                        05/15/09   employees IRS-wide.
                                                                   F-3, R-1, P-1. Develop and establish a more strategic approach to enhance
                                                                   return-to-work efforts that include specific policies and procedures for
                                                                   working across functional areas to transition injured employees into
                                                                   productive activities in the workplace.

2008-40-086       Taxpayer Protection    March 2008                Outreach Has Improved, But More Action Is Needed to Effectively
                      and Rights                                   Address Employment-Related and Tax Fraud Identity Theft

                                                        10/15/08   F-2, R-1, P-1. Update the individual case screens on the Automated
                                                                   Underreporter system to display prior year closing codes and ensure
                                                                   revision of the case selection criteria to incorporate special handling of
                                                                   identity theft victims.

2008-40-087      Complexity of the Tax   March 2008                Individual Retirement Account Contributions and Distributions Are Not
                        Law                                        Adequately Monitored to Ensure Tax Compliance

                                                        12/15/11   F-1, R-1, P-1. Analyze Forms 5498 to identify the causes of the errors and
                                                                   possible corrective actions.
                                                        01/15/10   F-2, R-1, P-1. Develop and implement strategies to bring noncompliant
                                                                   taxpayers back into compliance.
                                                        01/15/10   F-3, R-1, P-1. Consider using the indicator on the Form 5498 to identify
                                                                   taxpayers who are subject to required minimum distributions.
                                                        03/15/11   F-3, R-2, P-1. Consider requiring custodians to report estimated required
                                                                   minimum distribution amounts on the Form 5498.

2008-40-089        Providing Quality     March 2008                Increasing Federal and State Cooperation and Promoting Electronic
                   Taxpayer Service                                Filing Would Improve Administration of Taxes Used to Maintain the
                      Operations                                   Nation’s Highways

                                                        03/15/09   F-1, R-1, P-1, P-2. Encourage more participation in the Alternate Proof of
                                                                   Payment Program, develop a process to identify States participating in the
                                                                   program, and ensure agreement provisions are followed.




              TIGTA Semiannual Report to Congress                                                                                   63
              April 1, 2008 – September 30, 2008
                                    Other Statistical Reports

              The Inspector General Act of 1978 requires Inspectors General
                             to address the following issues:
                          Issue                                             Result for TIGTA
Access to Information

Report unreasonable refusals of information available to     As of September 30, 2008, there were no
the agency that relate to programs and operations for        instances in which information or assistance
which the Inspector General has responsibilities.            requested by the Office of Audit was refused.


Disputed Audit Recommendations

Provide information on significant management decisions in   As of September 30, 2008, no reports were issued
response to audit recommendations with which the Inspector   in which significant recommendations were
General disagrees.                                           disputed.


Revised Management Decisions

Provide a description and explanation of the reasons for     As of September 30, 2008, no significant
any significant revised management decisions made            management decisions were revised.
during the reporting period.


Audit Reports Issued in the Prior Reporting Period
with No Management Response

Provide a summary of each audit report issued before the     As of September 30, 2008, there were no prior
beginning of the current reporting period for which no       reports where management’s response was not
management response has been received by the end of the      received.
current reporting period.


Review of Legislation and Regulations

Review existing and proposed legislation and regulations,    TIGTA’s Office of Chief Counsel reviewed 284
and make recommendations concerning the impact of            proposed regulations and legislative requests
such legislation or regulations.                             during this reporting period.




    64                                                            TIGTA Semiannual Report to Congress
                                                                    April 1, 2008 – September 30, 2008
                               APPENDIX II
                             AUDIT PRODUCTS
                     April 1, 2008 – September 30, 2008

                         Inspector General Congressional Testimony
Reference Number                                Hearing Title
               April 2008
  2008-OT-115      Identity Theft
  2008-OT-116      The Internal Revenue Service’s Fiscal Year 2009 Budget
              June 2008
                 Joint hearing, Subcommittee on Oversight, Subcommittee on Social Security, Committee on
  2008-OT-145
                 Ways and Means, U.S. House of Representatives


                                            Audit Products
Reference Number                                  Report Title
                April 2008
                    Audit of Cost Accounting Standard 417, Cost of Money As an Element of the Cost of Capital
  2008-1C-068
                    Assets Under Construction
  2008-1C-069       Report on Contractor’s Overall Fiscal Year 2007 Floor Check
  2008-1C-070       Report on Examination of Fiscal Year 2004 Incurred Costs and Indirect Expense Rates
  2008-1C-079       Incurred Cost Audit for Fiscal Year 2005
                    Report on Audit of Compliance With Cost Accounting Standard 411, Accounting for
  2008-1C-080
                    Acquisition Costs of Material
                    Report on Audit of Adequacy and Compliance of the Contractor’s Fiscal Year 2007 Revised
  2008-1C-081
                    Disclosure Statement
  2008-1C-083       Incurred Cost Audit for Fiscal Year Ended August 31, 2003
  2008-1C-084       Examination of Paid Vouchers
  2008-1C-085       Incurred Cost Audit for Fiscal Year 2004
                    Due to the Lack of Experienced Users, the Benefits of Performance-Based Acquisition Are Not
  2008-10-098
                    Being Fully Realized
  2008-30-097       Fiscal Year 2008 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
                    Fiscal Year 2008 Statutory Audit of Compliance With Legal Guidelines Restricting the Use of
  2008-40-108
                    Records of Tax Enforcement Results
  2008-30-095       Trends in Compliance Activities Through Fiscal Year 2007
                    The Taxpayer Advocate Service Needs to Improve Its Processing of Economic Burden Cases
                    (Revenue Protection: $21,296, impacting 1,083 taxpayers; Taxpayer Burden: 36,003 taxpayers
                    unnecessarily burdened; Taxpayer Rights and Entitlements: 1,354 taxpayers contacted despite
  2008-10-088
                    having a power of attorney on file; Taxpayer Privacy and Security: 541 taxpayer accounts in
                    which an unauthorized disclosure was made to third parties; Reliability of Information: The
                    Primary Core Issue Code was incorrectly entered in 14,076 cases)



          TIGTA Semiannual Report to Congress                                                             65
          April 1, 2008 – September 30, 2008
2008-30-094      Additional Actions Are Needed to Effectively Address the Tax Gap
                 The Telephone Excise Tax Refund Program Was Successfully Implemented for Businesses;
2008-30-091
                 However, a Large Amount of Overcollected Tax Has Gone Unclaimed
                 Lack of Compensation for Unused Sick Leave at Retirement Has contributed to Higher Use by
2008-30-093
                 Employees in the Federal Employees Retirement System
                 Oversight and Administration of the Tax Counseling for the Elderly Program Need
2008-40-112      Improvement (Reliability of Information: Information not available to determine if funding of
                 $3.9 million was appropriately spent)
                 While Renowned for Its Forensic Capabilities, the Digital Evidence Program Faces Challenges
2008-10-106
                 and Needs More Controls
              May 2008
                 The Complexity of the Law Makes Administering the Alternative Motor Vehicle Credit
2008-30-107      Difficult (Revenue Protection: $151,828 impacting 69 taxpayers)
                 Installment Agreement User Fees Were Not Properly Calculated or Always Collected
                 (Increased Revenue: $1,087,003 impacting 33,711 taxpayers; Taxpayer Rights and
2008-40-113      Entitlements: $12,818,705 of excess or duplicate user fees paid impacting 941,256 taxpayers)
                 Inaccurate and Incomplete Data Have Adversely Affected Implementation of the Taxpayer
2008-40-118      Assistance Center Geographic Footprint
                 Fiscal Year 2008 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of
                 Illegal Tax Protester and Similar Designations (Taxpayer Rights and Entitlements: 427
2008-40-124      taxpayers improperly identified)
                 Report on Audit of Compliance With Cost Accounting Standard 409, Depreciation of Tangible
2008-1C-101      Capital Assets
2008-1C-102      Report on the Contractor's Information Technology System General Internal Controls
                 Report on Compliance With Cost Accounting Standard 403, Allocation of Home Office
2008-1C-103      Expenses to Segments
2008-1C-104      Fiscal Year 2005 Incurred Costs Audit
                 Audit of the Contractors Fiscal Years 2008 through 2012 Forward Pricing and Provisional
2008-1C-105      Billing Indirect Expense Rates
2008-1C-109      Audit of Cost Impact Statement Change in Executive Compensation
                 Actions Are Needed to Control Risks With International Transactions Reported on Corporate
2008-30-114      Income Tax Returns
              June 2008
                 Chief Counsel Should Address Questions Related to Proposed Changes in the Automatic
2008-10-123
                 Consent Process
                 Fiscal Year 2008 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights
2008-40-127      When Requested to Extend the Assessment Statute (Taxpayer Rights and Entitlements: 984
                 taxpayer and taxpayer representative case files not adequately documented)
                 Fiscal Year 2008 Review of Compliance With Legal Guidelines When Conducting Seizures of
2008-30-126      Taxpayers’ Property (Taxpayer Rights and Entitlements: 19 taxpayers whose rights could be
                 adversely affected)
                 Improvements in the Distribution and Design of Internal Documents and Tax Publications,
2008-40-125
                 Forms, and Notices Could Reduce Costs Considerably (Funds Put to Better Use: $20,166,340)
                 A Self-Assistance Option Would Reduce Burden and Costs Associated With Resolving
2008-40-128      Rejected Electronic Tax Returns (Inefficient Use of Resources: $15,080,138 in reduced contact
                 costs; Taxpayer Burden: 774,930 fewer contacts by taxpayers)
                 Improvements Have Been Made to Educate Tax-Exempt Organizations and Enforce the
2008-10-117
                 Prohibition Against Political Activities, but Further Improvements Are Possible
                 Improvements to the Modernized e-File System Will Help Provide Intended Benefits to the
2008-20-122
                 Internal Revenue Service and Taxpayers (Taxpayer Burden: 142,475 taxpayers with delayed


 66                                                           TIGTA Semiannual Report to Congress
                                                                April 1, 2008 – September 30, 2008
                  return processing; Reliability of Information: incorrect data on 82,871 returns)
2008-20-129       Annual Assessment of the Business Systems Modernization Program
                  Progress Has Been Made, but Important Work Must Be Completed to Ensure Timely
2008-10-132
                  Identification of Future Leaders
              July 2008
2008-1C-110       Calendar Year 2005 Incurred Cost Audit (Cost Savings: $10,627)
                  Report on Audit of Compliance With Cost Accounting Standard 416, Accounting for Insurance
2008-1C-111
                  Costs
2008-1C-119       Report on Follow-up Audit of Budget and Planning System Internal Controls
                  Report on Audit of Compliance With Cost Accounting Standard 404, Capitalization of
2008-1C-120
                  Tangible Assets
2008-1C-121       Fiscal Year 2005 Incurred Cost Audit
                  While Progress Has Been Made, Limits on the Number of Examinations Reduce the
2008-40-131
                  Effectiveness of the Earned Income Tax Credit Recertification Program
                  Correspondence Imaging System Performance Has Improved, but Additional Measures Are
2008-20-130       Needed to Ensure That the System Performs As Expected (Reliability of Information: Costs
                  and benefits overstated by $201.6 million)
                  Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities for Fiscal
2008-10-133
                  Years 2000 Through 2007
2008-20-143       Control Weaknesses at Internal Revenue Service Internet Connections Increase Security Risks
                  While Documentation Was Not Available to Fully Assess the Return Preparer Program,
2008-30-147       Identification and Processing of Preparer Penalties Can Be Improved (Increased Revenue:
                  $750; Taxpayer Privacy and Security: 4 instances with potential for unauthorized disclosure)
2008-30-144       Better Management of Some Procedures for Sales of Seized Property Is Needed
                  Procedures Were Not Always Followed When Resolving Alternative Minimum Tax
2008-40-146
                  Discrepancies
                  The Information Technology Enterprise Governance Structure Needs Further Process
2008-20-134
                  Improvements to Ensure Adequate Oversight
                  Improved Controls Over Grants Provided to Low Income Taxpayer Clinics Would Lower the
                  Risk of the Inappropriate Use of Federal Government Funds (Questioned Costs: $61,327;
2008-10-142
                  Reliability of Information: Controls not sufficient to ensure reported $7.7 million in financial
                  information is accurate)
2008-40-149       Evaluation of Planning Efforts for the Issuance of Economic Stimulus Payments
                  Treasury Inspector General for Tax Administration – Federal Information Security
2008-20-153
                  Management Act (Intelligence – National Security Systems) Report for Fiscal Year 2008
              August 2008
                  The Automated Collection System Gap Case Test Initiative Was Not Effectively Conducted
2008-30-150       (Reliability of Information: $315,000 collected from taxpayers were not considered when
                  assessing the results of the Gap Test)
2008-1C-135       Report on Fiscal Year 2008 Floor Check
2008-1C-136       Incurred Cost Audit for Fiscal Year Ended June 30, 2006
                  Report on Audit of Noncompliance With Cost Accounting Standard 420, Accounting for
2008-1C-137       Independent Research and Development Costs and Bid and Proposal Costs
2008-1C-138       Audit of Contractor’s Billing System Internal Controls
                  Audit of Subcontract Costs Billed in Fiscal Years 2004 Through 2006 on Prime Contract
2008-1C-139       Number TIRNO-00-D-00014
                  Report on Audit of Compliance With Cost Accounting Standard 404, Capitalization of
2008-1C-141       Tangible Assets
                  Report on Audit of Compliance With Cost Accounting Standard 409, Depreciation of Tangible
2008-1C-152       Assets


       TIGTA Semiannual Report to Congress                                                                   67
       April 1, 2008 – September 30, 2008
                 Computer Programming Changes Are Needed to Reduce Delays in Reissuing Some
                 Undelivered Refund Checks (Questioned Costs: $36,160; Taxpayer Burden: 73,795 taxpayers
2008-30-155      with delayed refunds after notices were sent to incorrect addresses)
                 Unauthorized and Insecure Internal Web Servers Are Connected to the Internal Revenue
2008-20-159      Service Network
                 Guidance Could Be Enhanced for Deciding to Use a Qualified Intermediary in Like-Kind
2008-30-154      Exchanges
                 Indian Tribal Noncompliance With the Bank Secrecy Act Is Effectively Identified and
                 Addressed, but Improvements Can Be Made (Reliability of Information: 270 accounts on
2008-10-140      database are not accurate or complete)
                 The Office of Disclosure Continued to Improve Compliance With the Freedom of Information
                 Act Requirements (Taxpayer Rights and Entitlements: 274 responses in which information was
2008-30-164      incorrectly withheld or that were not timely processed)
                 The Withholding Compliance Program Is Improving Taxpayer Compliance; However,
2008-40-167      Additional Enforcement Actions Are Needed (Increased Revenue: $45.5 million)
                 Increased Call Volume Associated With Economic Stimulus Payments Reduced Toll-Free
2008-40-168      Access for the 2008 Filing Season
                 A More Strategic and Consistent Approach to Estimating Retirements and Other Separations Is
2008-10-169      Needed to Better Plan for Future Human Resource Needs
                 Many Taxpayers Who Obtain Refund Anticipation Loans Could Benefit From Free Tax
2008-40-170      Preparation Services
              September 2008
                 Most Tax Returns Prepared by a Limited Sample of Unenrolled Preparers Contained
2008-40-171
                 Significant Errors
2008-40-174      Evaluation of the Computation of Economic Stimulus Payments
                 Five Fair Tax Collection Practices Violations Resulted in Administrative Actions in Calendar
2008-10-162      Year 2007 (Reliability of Information: 13 employee cases not properly coded on the Automated
                 Labor and Employee Relations Tracking System
                 The Internal Revenue Service and Contractors Are Generally Following Procedures Established
2008-30-157
                 for the Private Debt Collection Program, but Improvements Are Needed
                 Treasury Inspector General for Tax Administration – Federal Information Security
2008-20-173
                 Management Act Report for Fiscal Year 2008
                 Customer Account Data Engine Project Management Practices Have Improved, but Continued
2008-20-151
                 Attention Is Needed to Ensure Future Success
                 The Office of Appeals Continues to Show Improvement in Processing Collection Due Process
                 Cases (Taxpayer Rights and Entitlements: 6,437 closed Collection Due Process and
2008-10-160
                 Equivalency Hearing cases that did not contain required or sufficient documentation;
                 Reliability of Information: 1,844 cases with incorrect computer codes)
                 The Enterprise Systems Management Program Is Making Progress to Improve Service Delivery
2008-20-161
                 and Monitoring, but Risks Remain (Inefficient Use of Resources: $491,952)
                 Tax Forms and Publications Were Generally Obtainable, but the Time Required to Acquire
2008-30-166      Forms Could Be Reduced
                 Opportunities Exist to Improve the Correspondence Examination Process for High-Income
2008-30-156      Nonfilers
                 The Internal Revenue Service Needs to Evaluate Tolerance Levels to Ensure That Program
2008-30-158      Objectives Are Met
2008-10-148      Emergency Preparedness at Internal Revenue Service Facilities Needs to Be Improved
                 The Telephone Excise Tax Refund Was Not Claimed on Business Tax Returns Primarily
2008-30-175      Because of the Perceived Work and Expense Involved to Do So
2008-20-176      The Office of Research, Analysis, and Statistics Needs to Address Computer Security


 68                                                          TIGTA Semiannual Report to Congress
                                                               April 1, 2008 – September 30, 2008
               Weaknesses
2008-20-178    Weaknesses in Business Resumption Plans Could Delay Recovery From a Disaster
               Accuracy of Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to
2008-40-177
               Ensure Consistent Application of Procedures and Processes
               Additional Steps Need to Be Completed to Ensure the Success of the Service-wide Non-filer
2008-30-165
               Strategy
               An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing
2008-10-172
               Seasons (Revenue Protection: $1.356 billion; 206,208 taxpayers impacted)
               The Internal Revenue Service Deployed Two of Its Most Important Modernized Systems With
2008-20-163
               Known Security Vulnerabilities
               Most Automated Underreporter Program Notices Are Correct; However, Additional Oversight
2008-40-180    Is Needed (Increased Revenue: $1,146 and 97,340 taxpayers impacted; Taxpayer Rights and
               Entitlements: $18,968 and 243,345 taxpayers impacted)
               Processes Are Not Sufficient to Minimize Fraud and Ensure the Accuracy of Tax Refund Direct
2008-40-182
               Deposits
               Treasury Inspector General for Tax Administration – Federal Information Security
2008-20-179
               Management Act (Non-Intelligence – National Security Systems) Report for Fiscal Year 2008
               Although the Large and Mid-Size Business Division’s Currency Initiative Was Considered a
2008-30-181
               Success, Improvements Could Be Made in Future Initiatives
               The 2008 Filing Season Was Generally Successful Despite the Challenges of Late and
2008-40-183    Unexpected Tax Legislation (Revenue Protection: $3.5 million impacting 10,678 taxpayers;
               Taxpayer Rights and Entitlements: $438 million impacting 1.8 million taxpayers)




       TIGTA Semiannual Report to Congress                                                          69
       April 1, 2008 – September 30, 2008
                    APPENDIX III
                 TIGTA’S STATUTORY
              REPORTING REQUIREMENTS
TIGTA issued 25 audit reports required by statute dealing with the adequacy and security of IRS
technology during this reporting period. In FY 2008, TIGTA completed its tenth round of
statutory reviews that are required annually by the Internal Revenue Service Restructuring and
Reform Act of 1998. TIGTA also completed its annual review requirement of the Federal
Financial Management Improvement Act of 1996 and the Office of National Drug Control Policy
Detailed Accounting Submission and Assertions. The following table reflects the status of the FY
2008 statutory reviews.

      Reference to                 Explanation of the
                                                                            Comments/TIGTA Audit Status
   Statutory Coverage                  Provision

Enforcement Statistics           Requires TIGTA to                 Reference No. 2008-40-108, April 2008
                                 evaluate the IRS’s                Potential violations were identified in 7 (1 percent) of the
Internal Revenue Code (I.R.C.)   compliance with                   660 performance evaluation documents reviewed. In
§ 7803(d)(1)(A)(i)               restrictions under section        addition, four managers did not document that they had
                                 1204 of RRA 98 on the use         evaluated employees on the retention standard that
                                 of enforcement statistics to      requires the fair and equitable treatment of taxpayers, and
                                 evaluate IRS employees.           29 (45 percent) of the 65 employees and managers that
                                                                   TIGTA asked did not understand the intent of the retention
                                                                   standard. Further, five managers of employees could not
                                                                   substantiate compliance with IRS procedures by providing
                                                                   evidence that they had completed the requested RRA 98
                                                                   Section 1204 Manager’s Self-Certification Forms.



Restrictions on Directly         Requires TIGTA to                 Reference No. 2008-40-090, March 2008
Contacting Taxpayers             evaluate the IRS’s                The IRS’s Internal Revenue Manual provides employees
                                 compliance with restrictions      guidance to help ensure compliance with the direct contact
I.R.C.                           under I.R.C. § 7521 on            provisions of the I.R.C. In addition, the IRS has informed
§ 7803(d)(1)(A)(ii)              directly contacting taxpayers     taxpayers of these rights through various IRS publications.
                                 who have indicated they           However, this is the tenth year that TIGTA could not
                                 prefer their representatives be   determine whether IRS employees followed proper
                                 contacted.                        procedures to stop an interview if the taxpayer requested to
                                                                   consult with a representative. Neither TIGTA nor the IRS
                                                                   could readily identify cases where a taxpayer requested a
                                                                   representative or the IRS contacted the taxpayer directly and
                                                                   improperly bypassed the representative. IRS management
                                                                   information systems do not separately record or monitor
                                                                   direct contact requirements, and there is no legal requirement
                                                                   for the IRS to do so. TIGTA does not recommend the
                                                                   creation of a separate tracking system.




          TIGTA Semiannual Report to Congress                                                                                 71
          April 1, 2008 – September 30, 2008
      Reference to             Explanation of the
                                                                     Comments/TIGTA Audit Status
   Statutory Coverage              Provision

Filing of a Notice of Lien   Requires TIGTA to             Reference No. 2008-30-082, March 2008
                             evaluate the IRS’s            The IRS may not have complied with the law in all cases.
I.R.C.                       compliance with required      TIGTA’s review of a statistically valid sample of 150 Federal
§ 7803(d)(1)(A)(iii)         procedures under I.R.C.       Tax Lien cases identified 145 cases (97 percent) for which the
                             § 6320 upon the filing of a   IRS did mail lien notices correctly and in a timely manner, as
                             notice of lien.               required by I.R.C. § 6320 and internal procedures. For the
                                                           other five lien notices (3 percent), TIGTA could not
                                                           determine if the law was complied with because the IRS
                                                           could not provide proof of mailing.

                                                           When an initial lien notice is returned because it could not be
                                                           delivered and a different address is available for the taxpayer,
                                                           the IRS does not always meet its statutory requirement to send
                                                           the lien notice to the taxpayer’s last known address. For 29 (7
                                                           percent) of the 400 cases, employees did not research IRS
                                                           computer systems for different addresses. For 104 (26
                                                           percent) of the 400 cases, the research was not performed
                                                           within five business days. TIGTA also identified two cases
                                                           for which a new lien notice should have been sent to the
                                                           taxpayer at the updated address because the IRS systems
                                                           listed the address prior to the lien filing. These two cases
                                                           could involve legal violations because the IRS did not meet its
                                                           statutory requirement of sending lien notices to the taxpayer’s
                                                           last known address.

                                                           Also, the IRS did not always follow its own internal
                                                           guidelines for notifying taxpayer representatives of the filing
                                                           of lien notices. For 12 (40 percent) of the 30 cases in which
                                                           the taxpayer had an authorized representative at the time of
                                                           the lien actions, the IRS did not notify the taxpayer’s
                                                           representative of the lien filing. In addition, on two cases, it
                                                           sent notifications to representatives not authorized to receive
                                                           such information.




  72                                                             TIGTA Semiannual Report to Congress
                                                                   April 1, 2008 – September 30, 2008
      Reference to                Explanation of the
                                                                         Comments/TIGTA Audit Status
   Statutory Coverage                 Provision

Extensions of the Statute of    Requires TIGTA to include       Reference No. 2008-40-127, June 2008
Limitations for Assessment of   information regarding           The IRS has shown improvement over prior years when
Tax                             extensions of the statute of    documenting that taxpayers were informed of their rights.
                                limitations for assessment      The percentage of case files without documentation has
I.R.C.                          of tax under I.R.C. § 6501      steadily decreased over the last 5 years. However, there were
§ 7803(d)(1)(C)                 and the provision of notice     still instances in which there was no documentation in the
                                to taxpayers regarding the      related case files to show that taxpayers were advised of their
I.R.C.                          right to refuse or limit the    rights regarding assessment statute extensions. In TIGTA’s
§ 6501(c)(4)(B)                 extension to particular         statistical sample of 139 tax returns, 8 (6 percent) of the
                                issues or a particular period   related case files reviewed did not adequately document that
                                of time.                        the taxpayers had been advised of their rights regarding
                                                                assessment statute extensions. This sample included 109 case
                                                                files with authorizations for third-party representation.
                                                                TIGTA found that 9 (8 percent) of the 109 files did not
                                                                document that the taxpayers’ representatives were provided
                                                                with the required notifications.

                                                                TIGTA’s discussions with employees who worked these
                                                                exception cases determined that some employees
                                                                overlooked the fact that the required information was not
                                                                documented in the case file. Other employees indicated
                                                                that when a taxpayer asked them to deal directly with his
                                                                or her representative, the employees did so exclusively.
                                                                Because the taxpayer did not want to be involved in the
                                                                audit process, the employees informed only the
                                                                representative of the taxpayer’s rights. This is consistent
                                                                with the IRS’s position that informing a taxpayer’s
                                                                representative meets the requirement that the taxpayer be
                                                                informed.



Levies                          Requires TIGTA to               Reference No. 2008-30-097, April 2008
                                evaluate the IRS’s              The IRS is protecting taxpayers’ rights when issuing
I.R.C.                          compliance with required        manually prepared levies. TIGTA reviewed
§ 7803(d)(1)(A)(iv)             procedures under I.R.C.         30 Integrated Collection System manual levies issued by
                                § 6330 regarding levies.        revenue officers and 30 Automated Collection System
                                                                (ACS) manual levies issued by customer service
                                                                representatives and found that the IRS properly informed
                                                                taxpayers of their appeal rights at least 30 calendar days
                                                                prior to issuing the levies.
                                                                Additionally, TIGTA evaluated the effectiveness of program
                                                                changes on the ACS for sending reminder notices to taxpayers
                                                                when more than 180 calendar days passed since the date of
                                                                the notification letter. TIGTA reviewed 30 manual levies
                                                                issued more than 180 calendar days after the original notices
                                                                of intent to levy had been sent. The review showed that the
                                                                IRS had sent appropriate reminder letters if there had been no
                                                                other contacts with taxpayers within 180 calendar days of the
                                                                date of the notices.




          TIGTA Semiannual Report to Congress                                                                              73
          April 1, 2008 – September 30, 2008
      Reference to                Explanation of the
                                                                        Comments/TIGTA Audit Status
   Statutory Coverage                 Provision

Collection Due Process          Requires TIGTA to              Reference No. 2008-10-160, September 2008
                                evaluate the IRS’s             The IRS has continued to show improvements in the
I.R.C.                          compliance with required       processing of Collection Due Process cases as a whole by
§ 7803(d)(1)(A)(iii) and (iv)   procedures under I.R.C.        generally classifying taxpayer requests properly,
                                §§ 6320 and 6330 regarding     developing additional procedures, and ensuring that the
                                the taxpayers’ rights to       Collection Statute Expiration Dates for taxpayer accounts
                                appeal lien or levy actions.   were correct. However, TIGTA identified a few instances
                                                               in which taxpayers were not provided with their right to a
                                                               hearing because Appeals employees did not make
                                                               sufficient attempts to contact the taxpayers before closing
                                                               their cases. In addition, some taxpayers might not have
                                                               received an appropriate or complete response to the issues
                                                               raised in their appeals because some case files did not
                                                               include required documentation. Without the appropriate
                                                               case documentation, TIGTA could not identify the issues
                                                               raised by the taxpayer or whether Appeals adequately
                                                               addressed all issues in the taxpayer’s hearing. Further,
                                                               hearing officers are still not always documenting their
                                                               impartiality in the case files. TIGTA also found
                                                               correspondence to some taxpayers was not accurate or
                                                               clear or did not fully address all issues raised by the
                                                               taxpayers. As a result, taxpayers could experience
                                                               increased burden if they have to contact the IRS for
                                                               additional assistance. Finally, TIGTA identified taxpayer
                                                               accounts that did not contain required computer coding to
                                                               identify those taxpayers who had exercised their appeal
                                                               rights. As a result, IRS employees who access the
                                                               taxpayers’ accounts for review or to take subsequent
                                                               actions will not be aware of the taxpayers’ appeals. This
                                                               could result in erroneous collection actions, inappropriate
                                                               suspension of collection activity, or incorrect information
                                                               or advice from IRS personnel.




  74                                                                TIGTA Semiannual Report to Congress
                                                                      April 1, 2008 – September 30, 2008
      Reference to                  Explanation of the
                                                                              Comments/TIGTA Audit Status
   Statutory Coverage                   Provision

Seizures                          Requires TIGTA to                 Reference No. 2008-30-126, June 2008
                                  evaluate the IRS’s                TIGTA reviewed a random sample of 50 of the
I.R.C.                            compliance with required          683 seizures conducted from July 1, 2006 through June 30,
§ 7803(d)(1)(A)(iv)               procedures under I.R.C.           2007, and determined that the IRS complied with the
                                  §§ 6330 through 6344 when         numerous legal and internal guidelines when conducting
                                  conducting seizures.              the majority of seizures. However, in 19 seizures, there
                                                                    were 25 instances in which the IRS did not comply with a
                                                                    particular I.R.C. requirement. Because there can be
                                                                    numerous statutory violations on each case, the 25
                                                                    instances identified in the 50 cases represent an error rate
                                                                    of only about 1 percent. While TIGTA did not identify
                                                                    any instances in which the taxpayers were adversely
                                                                    affected, not following legal and internal guidelines could
                                                                    result in abuses of taxpayers’ rights.
                                                                    The Seized Property Sale Report (Form 2436) contains the
                                                                    required entries for expenses and proceeds, as well as a
                                                                    summary section for expenses incurred. However, Form
                                                                    2436 was not required for all seizure expenses and
                                                                    proceeds transactions. Consistent use of this Form might
                                                                    have prevented many of the instances TIGTA identified
                                                                    from occurring.



Taxpayer Designations – Illegal   An evaluation of the IRS’s        Reference No. 2008-40-124, May 2008
Tax Protester Designation and     compliance with                   In general, the IRS is in compliance with the prohibition on
Nonfiler Designation              restrictions under                using Illegal Tax Protester (ITP) or similar designations. The
                                  section 3707 of RRA 98 on         IRS has not reintroduced past ITP codes on the Master File,
I.R.C.                            designation of taxpayers.         and formerly coded taxpayer accounts have not been assigned
§ 7803(d)(1)(A)(v)                                                  similar Master File designations. In addition, the IRS does
                                                                    not have any current publications with ITP references, and it
                                                                    has removed all ITP reference from the Internal Revenue
                                                                    Manual. However, there were some references in case files.
                                                                    In 430 instances out of approximately 65.2 million records
                                                                    and cases, IRS employees referred to taxpayers as ITPs or
                                                                    other similar designations in case narratives.


Disclosure of Collection          Requires TIGTA to review          Reference No. 2008-40-099, March 2008
Activities With Respect to        and certify whether the IRS       IRS procedures provide employees sufficient guidance for
Joint Returns                     is complying with I.R.C.          handling joint filer collection activity information requests.
                                  § 6103(e)(8) to disclose          However, this is the tenth year that TIGTA could not
I.R.C.                            information to an individual      determine whether the IRS is complying with the statutory
§ 7803(d)(1)(B)                   filing a joint return on          requirements for responding to written collection activity
                                  collection activity involving     information requests from joint filers. IRS management
I.R.C.                            the other individual filing the   information systems do not separately record or monitor joint
§ 6103(e)(8)                      return.                           filer requests, and there is no legal requirement for the IRS to
                                                                    do so. TIGTA does not recommend the creation of a separate
                                                                    tracking system.




           TIGTA Semiannual Report to Congress                                                                                  75
           April 1, 2008 – September 30, 2008
      Reference to                   Explanation of the
                                                                              Comments/TIGTA Audit Status
   Statutory Coverage                    Provision

Taxpayer Complaints                Requires TIGTA to include         Statistical results on the number of taxpayer
                                   in each of its Semiannual         complaints received are shown on page 55.
I.R.C.                             Reports to Congress the
§ 7803(d)(2)(A)                    number of taxpayer
                                   complaints received and the
                                   number of employee
                                   misconduct and taxpayer
                                   abuse allegations received by
                                   IRS or TIGTA from
                                   taxpayers, IRS employees
                                   and other sources.


Administrative or Civil Actions    Requires TIGTA to include         Reference No. 2008-10-162, September 2008
With Respect to the Fair Tax       information regarding any         In Calendar Year 2007, there were five fair tax collection
Collection Practices Act of 1996   administrative or civil actions   practices violations that resulted in an administrative
                                   with respect to violations of     action being taken against an IRS employee. There were
I.R.C.                             the fair debt collection          no civil actions that resulted in the IRS paying monetary
§ 7803(d)(1)(G)                    provision of I.R.C. § 6304,       settlements to taxpayers because of a fair tax collection
                                   including a summary of such       practices violation.
I.R.C.                             actions, and any resulting
§ 6304                             judgments or awards granted.
Section 3466 of RRA 98



Denial of Requests for             Requires TIGTA to include         Reference No. 2008-30-164, August 2008
Information                        information regarding             The IRS continued to improve the accuracy,
                                   improper denial of requests       timeliness, and completeness of its responses to
I.R.C.                             for information from the IRS,     requests for information covered by the Freedom of
§ 7803(d)(1)(F)                    based on a statistically valid    Information Act (FOIA). For example, the percentage
                                   sample of the total number of     of untimely responses to FOIA/Privacy Act requests
I.R.C.                             determinations made by the        continued to decrease. In the previous eight years’
§ 7803(d)(3)(A)                    IRS to deny written requests      audits, the percentages of untimely responses ranged
                                   to disclose information to        from a high of 43.5 percent to a low of 2.3 percent. In
                                   taxpayers on the basis of         addition, TIGTA noted no exceptions in the 84 I.R.C.
                                   I.R.C. § 6103 or 5 U.S.C.         § 6103 cases reviewed. This is a marked
                                   § 552(b)(7).                      improvement over the results from last year, when
                                                                     information was improperly withheld in 14.5 percent
                                                                     of the cases reviewed.
                                                                     The improved performance can be attributed in large part
                                                                     to the policies, procedures, and techniques (management
                                                                     controls) in place to help ensure that disclosure personnel
                                                                     handle requests under the FOIA in a timely manner and in
                                                                     accordance with laws and regulations. While
                                                                     improvement was noted, management’s continued
                                                                     attention is needed to ensure that disclosure personnel
                                                                     follow required procedures. In 3.7 percent (3 of 82 cases)
                                                                     of the FOIA/Privacy Act cases reviewed, information was
                                                                     improperly withheld from requestors. These errors
                                                                     occurred mainly because of inadequate research or simple
                                                                     oversight by disclosure personnel.




  76                                                                       TIGTA Semiannual Report to Congress
                                                                             April 1, 2008 – September 30, 2008
      Reference to               Explanation of the
                                                                         Comments/TIGTA Audit Status
   Statutory Coverage                Provision

Adequacy and Security of the   Requires TIGTA to evaluate       Information Technology Reviews:
Technology of the IRS          the IRS’s adequacy and           Reference Number 2008-20-002, November 2007
                               security of its technology.      Reference Number 2008-20-028, January 2008
I.R.C.                                                          Reference Number 2008-20-053, March 2008
§ 7803(d)(1)(D)                                                 Reference Number 2008-20-122, June 2008
                                                                Reference Number 2008-20-129, June 2008
                                                                Reference Number 2008-20-130, July 2008
                                                                Reference Number 2008-20-134, July 2008
                                                                Reference Number 2008-20-151, September 2008
                                                                Reference Number 2008-20-161, September 2008

                                                                Security Reviews:
                                                                Reference Number 2008-20-026, November 2007
                                                                Reference Number 2008-20-029, December 2007
                                                                Reference Number 2008-20-030, December 2007
                                                                Reference Number 2008-20-061, February 2008
                                                                Reference Number 2008-20-071, March 2008
                                                                Reference Number 2008-20-076, March 2008
                                                                Reference Number 2008-20-077, March 2008
                                                                Reference Number 2008-20-078, March 2008
                                                                Reference Number 2008-20-143, July 2008
                                                                Reference Number 2008-20-153, July 2008
                                                                Reference Number 2008-20-159, August 2008
                                                                Reference Number 2008-10-148, September 2008
                                                                Reference Number 2008-20-163, September 2008
                                                                Reference Number 2008-20-176, September 2008
                                                                Reference Number 2008-20-178, September 2008
                                                                Reference Number 2008-20-179, September 2008

Federal Financial Management   Requires TIGTA to evaluate       Reference No. 2008-10-096, March 2008
Improvement Act of 1996        the financial management         TIGTA determined that no intermediate target dates were
(FFMIA)                        systems to ensure                missed on the 35 open remedial actions. However, the
                               compliance with Federal          IRS extended target dates related to 10 (29 percent) of the
31 U.S.C. § 3512               requirements, or                 35 open remedial actions. The extensions ranged from 6
                               establishment of a               months to 18 months. Although the IRS has reasonable
                               remediation plan with            explanations for the extended dates, these delays further
                               resources, remedies, and         hinder the IRS’s ability to address its noncompliance with
                               intermediate target dates to     the FFMIA in a timely manner. In addition, the IRS is still
                               bring the IRS into substantial   in the process of updating the remediation plan with
                               compliance.                      specific actions to develop timely and reliable cost
                                                                accounting information.




         TIGTA Semiannual Report to Congress                                                                           77
         April 1, 2008 – September 30, 2008
      Reference to                  Explanation of the
                                                                         Comments/TIGTA Audit Status
   Statutory Coverage                   Provision

Office of National Drug Control    Requires TIGTA to
Policy Detailed Accounting         authenticate the IRS’s       Reference No. 2008-10-058, January 2008
                                   Office of National Drug      TIGTA determined that the IRS’s FY 2007 ONDCP
Submission and Assertions
                                   Control Policy (ONDCP)       detailed accounting submission and performance summary
National Drug Enforcement          detailed accounting          report was clearly explained and adequately documented.
Policy 21 U.S.C. § 1704(d) and     submission and assertions.   However, in TIGTA’s opinion, the performance measure
the Office of National Drug                                     reported by the IRS could be improved to better represent
Control Policy Circular entitled                                the IRS’s contribution to the National Drug Control
Annual Accounting of Drug                                       Strategy. Specifically, by reporting only the number of
Control Funds, dated                                            ONDCP-related investigations completed, the IRS is
April 18, 2003.                                                 providing very little information on the effectiveness of its
                                                                efforts.




  78                                                                  TIGTA Semiannual Report to Congress
                                                                        April 1, 2008 – September 30, 2008
                     APPENDIX IV
               SECTION 1203 STANDARDS
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS employee if
there is a final administrative or judicial determination that, in the performance of official duties, such
employee committed any misconduct violations outlined below. Such termination shall be a removal for
cause on charges of misconduct.
Misconduct violations include:
    •   Willfully failing to obtain the required approval signatures on documents authorizing the seizure of a
        taxpayer’s home, personal belongings, or business assets;
    •   Providing a false statement under oath with respect to a material matter involving a taxpayer or
        taxpayer representative;
    •   Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS, any right
        under the Constitution of the United States, or any civil right established under Title VI or VII of the
        Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age Discrimination in
        Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation
        Act of 1973; or Title I of the Americans with Disabilities Act of 1990;
    •   Falsifying or destroying documents to conceal mistakes made by any employee with respect to
        a matter involving a taxpayer or taxpayer representative;
    •   Committing assault or battery on a taxpayer, taxpayer representative, or other employee of the
        IRS, but only if there is a criminal conviction or a final judgment by a court in a civil case,
        with respect to the assault or battery;
    •   Violating the Internal Revenue Code of 1986, Treasury regulations, or policies of the IRS (including
        the Internal Revenue Manual) for the purpose of retaliating against, or harassing a taxpayer, taxpayer
        representative, or other employee of the IRS;
    •   Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for the purpose
        of concealing information from a congressional inquiry;
    •   Willfully failing to file any return of tax required under the Internal Revenue Code of 1986 on or
        before the date prescribed therefore (including any extensions), unless such failure is due to
        reasonable cause and not to willful neglect;
    •   Willfully understating Federal tax liability, unless such understatement is due to reasonable cause and
        not to willful neglect; and
    •   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her sole
discretion, may establish a procedure that will be used to determine whether an individual should be
referred to the Commissioner for determination. Any mitigation determination by the Commissioner
in these matters may not be appealed in any administrative or judicial proceeding.


        TIGTA Semiannual Report to Congress                                                                   79
        April 1, 2008 – September 30, 2008
                   APPENDIX V
              DATA TABLES PROVIDED
                    BY THE IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information as provided by the IRS to TIGTA and consist of IRS
employee misconduct reports from the IRS Automated Labor and Employee Relations
Tracking System (ALERTS) for the period from April 1, 2008 through September 30, 2008.
Also, data concerning substantiated I.R.C. § 1203 allegations for the same period are
included. IRS management conducted inquiries into the cases reflected in these tables.




       TIGTA Semiannual Report to Congress                                            81
       April 1, 2008 – September 30, 2008
              Report of Employee Misconduct for the Period
               April 01, 2008 through September 30, 2008
                    Summary by Disposition Groups
                       (Table Provided by the IRS)
                                                                          Employee
                                TIGTA              Administrative           Tax             Background
     Disposition                                                                                                   Total
                             Investigations           Cases                Matter          Investigations
                                                                           Cases

Removal                                      37                     98                 9                    6          150
Separation of
Probationary
Employees                                     1                   153                  1                    5          160
Separation of
Temporary Employees                                                 43               10                     0            53
Resignation/Retirement                       69                   156                43                    22          290
Suspensions                                  95                   270               124                     8          497
Reprimands                                 124                    497               381                    21        1,023
Counseling                                                        338               364                    46          748
Alternative Discipline                       17                     83               39                     5          144
Clearance                                    81                   189                  9                               279
Closed Without Action                      211                    292               139                  141           783
Closed Without Action
(Caution Statement)                        161                    175                73                  133           542
Forwarded to TIGTA                                                  16                                      1            17
Suspended – Waiting
Supplemental                                  1                                                                            1
Termination for
Abandonment of
Position                                                            12                                                   12
Termination for Other
Than Job Abandonment                                                 3                                                     3
Forwarded to OPM for
MIF                                                                                                        1               1
Case Suspended
Pending Employee
Return To Duty                                3                      6                 4                                 13
Prosecution Pending for
TIGTA ROI’s                                  11                                                                          11

Total                                      811                  2,331             1,196                  389         4,727

Source: Automated Labor and Employee Relations Tracking System (ALERTS) This report is being produced in accordance with 26 USC
§ 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01, January 14, 1999 Extract Date: Thursday, October 02, 2008 Report ID = T1R3a



  82                                                                           TIGTA Semiannual Report to Congress
                                                                                 April 1, 2008 – September 30, 2008
              Report of Employee Misconduct for the Period
               April 01, 2008 through September 30, 2008
                           National Summary
                       (Table provided by the IRS)


                                                                                  Cases Closed
                                               Conduct
                          Opening                                                                                          Closing
     Case Type                                  Cases                                                     Non-
                         Inventory                                 Conduct                                                Inventory
                                               Received                              Duplicates          Conduct
                                                                    Issues
                                                                                                          Cases

    TIGTA
    Investigations
    ROI 1                            491                 824              (811)                  (0)              (0)               504
    Administrative
    Case 2                           918               2,404           (2,331)                  (33)              (8)               950
    Employee Tax
    Compliance
    Case 3                           801                 926           (1,196)                  (27)              (0)               504
    Background
    Investigations 4                 124                 483              (389)                  (1)              (0)               217

    Total                         2,334               4,637            (4,727)                 (61)               (8)             2,175

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115­
01, January 14, 1999

Extract Date: Thursday, October 02, 2008 Report ID = T1R1




1
  TIGTA Investigations - Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct and
referred a Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which becomes a
matter of official interest.
4
  Background Investigation - Any matter involving an NBIC investigation into an employee’s background that is referred to management for
appropriate action.




            TIGTA Semiannual Report to Congress                                                                                     83
            April 1, 2008 – September 30, 2008
              Summary of Substantiated I.R.C. § 1203 Allegations
                    Recorded in ALERTS for the Period
                 April 01, 2008 through September 30, 2008
                        (Table provided by the IRS)


                                                                                        Removed                                  In
     § 1203                                     Resigned/           Probation                               Penalty
                            Removals 1                                                  On Other                              Personnel       Total
    Violation                                    Retired           Separation                              Mitigated1
                                                                                        Grounds                                Process

 Seizure Without
 Approval                                 0                   0                   0                  0                    0               0       0
 False Statement
 Under Oath                               0                   0                   0                  0                    0               0       0
 Constitutional &
 Civil Rights
 Issues                                   0                   1                   0                  0                    0               0       1
 Falsifying or
 Destroying
 Records                                  0                   0                   0                  0                    0               1       1
 Assault or
 Battery                                  0                   0                   0                  0                    0               0       0
 Retaliate or
 Harass                                   0                   0                   0                  0                    0               0       0
 Misuse of §6103
                                          0                   0                   0                  0                    0               0       0
 Failure to File
 Federal Tax
 Return                                   6                   4                   0                 10                   40           28         88
 Understatement
 of Federal Tax
 Liability                                6                   5                   0                  2                   22           22         57
 Threat to Audit
 for Personal
 Gain                                     0                   2                   0                  0                    0               0       2

 Totals                                 12                  12                   0                 12                    62          51         149
Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review Board
records.
Extract Date: Thursday, October 02, 2008




    1
        The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third-party appeal.


         84                                                                             TIGTA Semiannual Report to Congress
                                                                                          April 1, 2008 – September 30, 2008
                                 List of Abbreviations
ACS                           Automated Collection System

ALERTS                        Automated Labor and Employee Relations Tracking System

AMS                           Account Management Services

AMT                           Alternative Minimum Tax

CADE                          Customer Account Data Engine

CID                           Criminal Investigation Division

CY                            Calendar Year

DOJ                           Department of Justice

EITC                          Earned Income Tax Credit

FDC                           Fraud Detection Centers

FFMIA                         Federal Financial Management Improvement Act

FOIA                          Freedom of Information Act

FY                            Fiscal Year

GAO                           General Accountability Office

GPRA                          Government Performance and Results Act

GSA                           General Services Administration

I&E                           Inspections and Evaluations

IMDDS                         Internal Management Document Distribution System

I.R.C.                        Internal Revenue Code

IRA                           Individual Retirement Account

IRS                           Internal Revenue Service


         TIGTA Semiannual Report to Congress                                           85
         April 1, 2008 – September 30, 2008
ITP      Illegal Taxpayer Protester

LITC     Low Income Tax Payer

MVS      Modernization Vision and Strategy

OA       Office of Audit

OI       Office of Investigations

ONDCP    Office of National Drug Control Policy

PBA      Performance Based Acquisition

PBS      Public Buildings Service

PY       Processing Year

QRP      Questionable Refund Program

RA       Revenue Agent

RAL      Refund Anticipation Loans

ROI      Report of Investigation

RRA 98   IRS Restructuring and Reform Act of 1998

SED      Strategic Enforcement Division

TAC      Taxpayer Assistance Center

TIGTA    Treasury Inspector General for Tax Administration

TY       Tax Year

UNAX     Unauthorized Accesses

USC      United States Code

VITA     Volunteer Income Tax Assistance




 86                                 TIGTA Semiannual Report to Congress
                                      April 1, 2008 – September 30, 2008
